<html>
<title> - LAW ENFORCEMENT IN INDIAN COUNTRY</title>
<body><pre>[Senate Hearing 110-106]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-106
 
                   LAW ENFORCEMENT IN INDIAN COUNTRY

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 17, 2007

                               __________

         Printed for the use of the Committee on Indian Affairs




                    U.S. GOVERNMENT PRINTING OFFICE
35-498                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                      COMMITTEE ON INDIAN AFFAIRS

                BYRON L. DORGAN, North Dakota, Chairman
                  CRAIG THOMAS, Wyoming, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            LISA MURKOWSKI, Alaska
DANIEL K. AKAKA, Hawaii              TOM COBURN, M.D., Oklahoma
TIM JOHNSON, South Dakota            PETE V. DOMENICI, New Mexico
MARIA CANTWELL, Washington           GORDON H. SMITH, Oregon
CLAIRE McCASKILL, Missouri           RICHARD BURR, North Carolina
JON TESTER, Montana
                Sara G. Garland, Majority Staff Director
              David A. Mullon Jr. Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 17, 2007.....................................     1
Statement of Senator Dorgan......................................     1
Statement of Senator McCaskill...................................    26
Statement of Senator Murkowski...................................    27
Statement of Senator Tester......................................    36
Statement of Senator Thomas......................................     3

                               Witnesses

Burns, Scott, Deputy Director for State, Local and Tribal 
  Affairs, Office of National Drug Control Policy................    21
    Prepared statement...........................................    23
Mead, Matthew H., United States Attorney, District of Wyoming....    16
    Prepared statement...........................................    18
Ragsdale, W. Patrick, Director, Bureau of Indian Affairs, 
  Department of the Interior; accompanied by Christopher P. 
  Chaney, Deputy Bureau Director, Bureau of Indian Affairs Office 
  of Justice Services, Department of the Interior................     4
    Prepared statement...........................................     7
Schofield, Regina B., Assistant Attorney General, Office of 
  Justice Programs, Department of Justice........................    10
    Prepared statement...........................................    12

                                Appendix

Response to Written Questions Submitted to Matthew H. Mead by:
    Hon. Lisa Murkowski..........................................    54
    Hon. Craig Thomas............................................    50
Response to Written Questions Submitted to Regina B. Schofield 
  by:
    Hon. Pete V. Domenici........................................    47
    Hon. Lisa Murkowski..........................................    48
    Hon. Craig Thomas............................................    44
Response to Written Questions Submitted to W. Patrick Ragsdale 
  and 
  Christopher P. Chaney by:
    Hon. Pete V. Domenici........................................    42
    Hon. Byron L. Dorgan.........................................    41
Smith, Chadwick, Principal Chief of the Cherokee Nation, prepared 
  statement......................................................    39


                   LAW ENFORCEMENT IN INDIAN COUNTRY

                              ----------                              


                         THURSDAY, MAY 17, 2007

                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m. in room 
485, Senate Russell Office Building, Hon. Byron L. Dorgan, 
Chairman of the Committee, presiding.

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. We will call the hearing to order this 
morning. This is a hearing of the Indian Affairs Committee. We 
will be discussing this morning the issue of law enforcement, 
law enforcement in Indian country, more specifically.
    My experience from listening sessions around the Country 
and my experience with the North Dakota tribal leaders tells me 
that there is a substantial need for additional resources 
dealing with law enforcement in Indian Country. We have a chart 
that will show the jurisdictional issues with respect to law 
enforcement in Indian Country. It is a web of complexity and 
difficulty. My own experience, as I have indicated, is that in 
virtually every area of law enforcement, there are so few 
resources for such a great need. We are trying to work through 
that.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    We have had hearings with respect to methamphetamine. We 
have had hearings with respect to--and you can take the chart 
down again, if you would--with respect to family abuse, child 
abuse and so on. We, as you know, have just received a report 
from Amnesty International entitled The Maze of Injustice: The 
Failure to Protect Indigenous Women from Sexual Violence. 
American Indian and Native Alaskan women are two and a half 
times more likely to be raped or sexually assaulted.
    There is such a dramatic amount of evidence out there that 
exists with respect to the problem of violence, of substance 
abuse and other related issues, and the lack of law enforcement 
resources to deal with it.
    I have toured detention facilities that were in desperate 
condition. I have seen young teenage boys lying on a cement 
floor of a detention facility, dead drunk and asleep in a 
facility where the persons should not have been incarcerated. 
We have all witnessed this in these tours that we have.
    The question is, what do we do about that? What do we do 
about the fact that there is nearly a 50 percent gap of the 
number of law enforcement officials that would be needed with 
respect to the areas that need to be patrolled, that need to be 
provided with police protection, versus the resources that are 
available. The same is true with respect to those that are 
dealing with facilities of incarceration with respect to guards 
and others.
    So we just have such a dramatic difficulty in providing 
adequate staffing, adequate training, adequate coverage to deal 
with all of these issues.
    We are having a hearing today in which we will hear from 
the Bureau of Indian Affairs, Mr. Pat Ragsdale. He will be 
accompanied by Mr. Christopher Chaney. Mr. Chaney was in North 
Dakota recently at a listening session on methamphetamine. I 
appreciate very much your traveling there, Mr. Chaney.
    Matthew Mead is the U.S. Attorney in Wyoming. Mr. Mead, we 
appreciate your traveling to Washington today to be with us. 
Regina Schofield is the Assistant Attorney General in the 
Office of Justice Programs at the U.S. Department of Justice, 
and the Honorable Scott Burns is Deputy Director for State and 
Local Affairs in the Office of National Drug Control Policy. 
Mr. Burns, thank you, and Ms. Schofield, thank you for being 
with us.
    It turns out we have a vote in about an hour and 15 
minutes. My hope is that we will be able to complete the 
hearing, or be close to completing the hearing, so we won't 
have to have a lengthy recess. But let me call on my colleague, 
Senator Thomas, who was instrumental in helping us get the 
right witnesses for this hearing.
    Senator Thomas?

                STATEMENT OF HON. CRAIG THOMAS, 
                   U.S. SENATOR FROM WYOMING

    Senator Thomas. Thank you, Mr. Chairman. You mentioned the 
vote before my comments, so I will try and keep it short.
    [Laughter.]
    Senator Thomas. Thank you very much for being here. And 
thank you, Mr. Chairman, for having this meeting.
    I think it is really quite important. Let me just share a 
Bureau of Justice Statistics estimate on violent crime rates in 
Indian Country, 101 per thousand. The national average is 41 
per thousand. Indian Country has 2,555 enforcement officers, 
but needs 4,400, an unmet staff gap certainly exists.
    BIA law enforcement provides 25 percent of the total law 
enforcement in Indian Country. The tribes provide 75 percent.
    So in any event, I want to welcome U.S. Attorney Matt Mead 
here from Wyoming. I appreciate that. He has taken a great deal 
of time and has taken time from his conference here to be with 
us. The Wind River Indian Reservation in Wyoming is one of the 
largest in the Country. We have only seven officers to patrol 
during the week, similar to many other reservations of that 
kind.
    So consequently, the average coalition of the law 
enforcement agencies and prosecutors is increasingly important. 
Mr. Mead has worked in that. In fact, he has been a key part of 
breaking up criminal organizations on the reservation, so we 
are delighted he is here.
    So Mr. Chairman, thank you for holding this hearing, and I 
am anxious to hear from the witnesses.
    The Chairman. Senator Thomas, thank you very much.
    What we will ask is that, as we traditionally do, ask 
witnesses to summarize their statements in about 5 minutes. 
Your entire statement will be a part of the permanent record. 
And then we would like, of course, to expand on your statements 
through questions and answers.
    Mr. Ragsdale, thank you for being with us. Mr. Ragsdale is 
the Director of the Bureau of Indian Affairs in the U.S. 
Department of the Interior. As I indicated, he is accompanied 
by Chris Chaney. Christopher Chaney is the Deputy Bureau 
Director of the Bureau of Indian Affairs Office of Justice 
Services.
    Mr. Ragsdale, you may proceed.

 STATEMENT OF W. PATRICK RAGSDALE, DIRECTOR, BUREAU OF INDIAN 
             AFFAIRS, DEPARTMENT OF THE INTERIOR; 
         ACCOMPANIED BY CHRISTOPHER P. CHANEY, DEPUTY 
  BUREAU DIRECTOR, BUREAU OF INDIAN AFFAIRS OFFICE OF JUSTICE 
              SERVICES, DEPARTMENT OF THE INTERIOR

    Mr. Ragsdale. Thank you, Mr. Chairman, Mr. Vice Chairman. 
Thank you for the opportunity to have this discussion about law 
enforcement in Indian Country.
    I was the director of Cherokee Nation's law enforcement 
services for about 7 years. Mr. Chaney is a former tribal 
prosecutor, Assistant United States Attorney, staff officer at 
the Department of Justice, our former Associate Solicitor for 
Indian Affairs for the Department of the Interior, and for the 
past 2 years, he has been our Director of Law Enforcement.
    During the past 2 years, we have endeavored to provide 
leadership to the law enforcement, detention and tribal courts 
functions that the Bureau supports in the administration of 
criminal justice in Indian Country. Policing in Indian Country 
is as old as our tribal societies, we say since time 
immemorial.
    Traditionally, Indian tribes have designated individuals to 
protect their societies and ensure order. By the 1820s, certain 
tribes organized light horsemen to suppress liquor trafficking 
and enforce tribal law. By the 1870s, Congress had appropriated 
funds for policing, and by 1883--and this is a significant bit 
of historical footnote--Congress had authorized over 1,000 
police positions for 48 agencies of the 68 agencies scattered 
on reservations throughout the United States.
    Currently, the BIA supports 191 law enforcement programs 
with 42 BIA-operated programs and 149 tribal-operated programs. 
As Senator Thomas said, about 78 percent of the total law 
enforcement service is tribal in nature. The BIA provides a 
wide range of services, which includes criminal investigations, 
police patrolling, detention facilities, tribal courts, and 
police officer training at the Indian Police Academy in 
Artesia, New Mexico, the Federal Law Enforcement Training 
Center in Glencoe, Georgia, and the National FBI Academy at 
Quantico, Virginia.
    In 2007, the total Justice Service budget for BIA for law 
enforcement, detention and training and tribal courts is $217.6 
million. In 2008, the President's total request is $233.8 
million, an approximately $16 million increase. To his great 
credit, Secretary Kempthorne has responded to these concerns. 
He has heard from tribal leaders throughout the Country and has 
elected to personally get engaged in this particular law 
enforcement initiative.
    He has also worked to provide publicity and public service 
campaigns to make Indian Country more aware of the problems of 
drugs in Indian Country. Mr. Burns, I noted in his testimony, 
will address this a little bit later.
    The BIA coordinates and works with other Federal agencies, 
including the Departments of Justice, Health and Human 
Services, Homeland Security, and their respective bureaus and 
offices such as the FBI, ATF, United States Attorneys, Indian 
Health Service, Substance Abuse and Mental Health Services 
Administration, and so on.
    Day to day coordination and cooperative relationships are 
sought with tribal and State law enforcement officers 
nationwide. I also emphasize the importance of our working 
relationships with United States Attorneys throughout the 
United States.
    Life in Indian Country has become more violent for a 
variety of reasons. In the past year, we conducted an analysis 
that included the service populations of each tribe that had a 
law enforcement program to determine appropriate high crime and 
high priority fund distributions. The analysis helped us to 
pinpoint the law enforcement programs with the greatest needs. 
Mr. Chaney may elaborate on the survey. However, the results 
confirm the most dire public safety situations with the most 
unacceptable crime rates.
    Of course, other social conditions contribute to these 
problems affecting public safety. Mr. Chaney's office has also 
worked with others to ascertain the resources needed. This 
analysis relied on qualitative and quantitative factors to help 
focus management's attention on the gap between what is and 
what should be in law enforcement and detention staffing for 
BIA.
    In short, we found that we have about one third to one half 
as many law enforcement personnel as compared to rural law 
enforcement in America. Secretary Kempthorne's Safe Indian 
Communities Initiative starts to address the need by providing 
for the hiring of 51 new law enforcement officers and 91 new 
corrections officers for Indian Country. This is a positive 
step in the effort to get needed public safety resources to our 
tribal communities, and we appreciate the additional resources 
provided by DOJ, HHS, and DHS, as well as the Office of 
National Drug Control Policy.
    There is, in my opinion, greater collaboration and 
cooperation between and among various tribal, State and Federal 
agencies than I have ever seen. Last Friday night, I attended a 
law enforcement awards banquet back in my home country, the 
Cherokee Nation, where the United States Attorney awarded 
awards to three Cherokee Nation marshals who had been involved 
in the drug conspiracy investigation which ultimately resulted 
in the highest sentence ever awarded in the Eastern Oklahoma 
District.
    That has been replicated during the Wind River situation 
that we will talk about a little bit later. I noted that within 
the last few weeks, that we served 42 warrants in North Dakota 
and South Dakota in a drug conspiracy case. So we are having a 
lot of those cases evolve throughout the Country in the most 
recent years.
    On many reservations, there is no 24-hour police coverage. 
Police officers often patrol alone and respond alone to both 
misdemeanor and felony calls. Our police officers are placed in 
great danger because backup is sometimes miles and hours away, 
if available at all.
    Today, there are 191 tribal and BIA law enforcement 
programs supported through congressional appropriations through 
the BIA. Under Public Law 280 and similar legislation that is 
specific to certain States, the remaining tribes rely on State 
and local law enforcement for enforcement of applicable 
criminal law. Jurisdiction in Indian Country is complex. The 
various statutes and provisions of case law make jurisdictional 
determinations difficult. The BIA encourages cooperative law 
enforcement and cross-commissioning so that Federal, tribal and 
State authorities can make arrests for each jurisdiction.
    Tribes also face a mounting drug problem. Tribal leaders 
describe a methamphetamine crisis that has the potential to 
destroy an entire generation if action is not taken. Some 
tribal leaders refer to the prevalence and use and access to 
the drug as the second smallpox epidemic and rank it as the 
number one public safety problem on their reservations.
    Organized crime, gangs, and drug cartels have taken 
advantage of the limited law enforcement presence on tribal 
lands to produce and distribute the drug, contributing to a 
violent crime rate in some communities that is 10 to 20 times 
the national average.
    This Committee held a hearing on methamphetamine in Indian 
Country last April. One of the witnesses stated that an 
estimated 25 percent of the babies born on her reservation are 
addicted to methamphetamine.
    Gang activity is also prevalent in too many of our 
communities, and domestic violence, child abuse and sexual 
crimes appear to be on the rise. We are committed to helping 
Indian Country remove this scourge from its midst.
    There are 82 detention facilities in Indian Country, some 
holding one to two cell facilities located on 57 reservations. 
The BIA and the tribes operate these facilities. Most of these 
facilities were built in the 1960s and 1970s. Many of these 
facilities were designed to hold only 10 to 30 adult inmates. 
We have also contracted for an independent study of detention 
requirements to determine specific things that we need to do to 
address this problem.
    Back to the Safe Indian Communities Initiative, which I 
talked about a little bit earlier, it includes $5 million to 
fund and staff tribal detention facilities in 2008. This will 
aid BIA in continuing to implement the recommendations of the 
2004 report by the Department's Inspector General. These funds 
will provide for the hiring of 91 additional correction 
officers in Indian Country.
    Last, let me talk just a little bit about the training that 
is essential to police operations. BIA operates an Indian 
Police Academy, which provides a basic 16-week course of police 
training and a variety of other police, jail, and radio 
dispatch courses for tribal and BIA law enforcement. The 
Academy is locate with the Department of Homeland Security's 
Federal Law Enforcement Training Center at Artesia, New Mexico.
    BIA and tribal criminal investigators also receive 
specialized training at the main FLETC Academy in Glencoe, 
Georgia. Select BIA and tribal law enforcement managers also 
participate in the FBI's National Academy in Quantico, 
Virginia.
    In closing, I believe everyone who is seriously trying to 
address these public safety issues in Indian Country will agree 
that policing alone will not solve this problem. Communities 
and all the providers from all fields of endeavor must unite to 
assure the protection and health of their citizens.
    Mr. Chairman, we want to thank you for holding this hearing 
on such an important subject for Indian Country. We will 
continue to work closely with you and your staff, tribal 
leaders, and our Federal partners to improve the safety of our 
people who reside on Indian lands.
    We will be happy to answer your questions. Thank you.
    [The prepared statement of Mr. Ragsdale follows:]

 Prepared Statement of W. Patrick Ragsdale, Director, Bureau of Indian 
  Affairs, Department of the Interior; accompanied by Christopher P. 
  Chaney, Deputy Bureau Director, Bureau of Indian Affairs Office of 
              Justice Services, Department of the Interior

    Mr. Chairman, Mr. Vice Chairman, and Members of the Committee, I am 
pleased to provide a statement on behalf of the Department of the 
Interior regarding law enforcement in Indian Country. With me today is 
Christopher Chaney, Deputy Director, Office of Justice Services (OJS) 
for the Bureau of Indian Affairs (BIA). We thank you for inviting us to 
provide testimony on an issue that significantly impacts the welfare of 
our American Indian and Alaska Native communities.
    The BIA has a service population of about 1.6 million American 
Indians and Alaska Natives who belong to 561 federally recognized 
tribes. The BIA supports 191 law enforcement programs with 42 BIA-
operated programs and 149 tribally-operated programs. Approximately 78 
percent of the total BIA OJS programs are outsourced to Tribes.
    OJS provides a wide range of law enforcement services to Indian 
country, including police services, criminal investigation, detention 
facilities, tribal courts, and officer training by the Indian Police 
Academy.
    Indian Country law enforcement provides services to a population 
that is predominantly under the age of 25, experiences high 
unemployment rates, and lacks municipal infrastructure. Indian lands 
range from remote wilderness to urban settings. The close proximity of 
a number of reservations to the international borders of Mexico and 
Canada make these locations the perfect targets for drug trafficking 
and other smuggling operations. Recent reports and news articles 
outline the extreme shortcomings of the criminal justice systems in 
Indian Country. Crime rates on most reservations are unacceptably high.
    Earlier this year, Secretary Kempthorne echoed the concern he heard 
from tribal leaders about the serious increase in violent crimes on 
their homelands, when he announced his Safe Indian Communities 
Initiative, which will increase law enforcement services where they are 
most needed in Indian country. The Initiative is part of the 
President's FY 2008 budget request. It includes a $16 million increase 
in funding to strengthen law enforcement capabilities on tribal lands 
by providing $5 million to hire additional law enforcement officers; $5 
million to increase staff at Indian detention facilities; and $6 
million to provide specialized drug enforcement training for officers 
and public awareness campaigns about the dangers of methamphetamine 
use. The Initiative will bring the total funding for BIA law 
enforcement to $233.8 million.
    The BIA coordinates with Department of Justice (DOJ) in many areas: 
coordination regarding funding for Law Enforcement police staffing, 
consultation regarding construction of detention facilities, and day-
to-day coordination with the FBI and United States Attorneys offices. 
The BIA is working in collaboration with DOJ on implementing the Amber 
Alert program in Indian Country and on developing effective means of 
sharing criminal justice information. In addition, the BIA is working 
with private industry to explore ways to bring new technology to Indian 
Country law enforcement.
    For many of the 1.6 million Indian citizens who live on or near 
Indian reservations, life has become much more violent. In the past 
year we conducted an analysis that included the service populations of 
each tribe that had a law enforcement program (including BIA direct 
service programs and tribal programs that were at least partially 
funded by the BIA through either a Public Law 93-638 contract or a 
``self-governance'' compact) to determine appropriate High Crime and 
High Priority fund distributions. The distribution is based upon the 
comparison of individual tribal violent crime rates with the national 
crime rate. In addition we looked at the number of officers that serve 
each reservation as compared to the national average and compared that 
figure for each tribe. This analysis helped us to pinpoint the law 
enforcement programs with the greatest need.
    Further, we contracted to have a Gap Analysis conducted, which was 
completed in 2006. The Gap Analysis measured current organizational 
functions and practices against a standard or benchmark, such as 
industry best practices, and examined organizational strategic goals. 
This analysis relied on quantitative and qualitative factors to help 
focus management's attention on the ``gap'' between ``what is'' and 
``what should be''. This, in turn, required management to ask ``How do 
we get there?''
    Part of what the Gap Analysis found was the need to hire additional 
law enforcement officers in Indian Country. The Safe Indian Communities 
Initiative would provide for the hiring of 51 new law enforcement 
officers and 91 new corrections officers for Indian country. This is a 
positive step in our efforts to get needed public safety resources to 
our tribal communities.
    As of the 2nd quarter of FY 2007, 48 percent of BIA funded law 
enforcement agencies were staffed to the national average of 2.6 
officers per 100,000 inhabitants in non-metropolitan communities. Of 
the agencies that are at the national average of staffing, 5 percent 
are BIA operated law enforcement agencies and 43 percent are tribally 
operated agencies under Public Law 93-638 contracts or Self-Governance 
compacts. On many reservations there is no 24-hour police coverage. 
Police officers often patrol alone and respond alone to both 
misdemeanor and felony calls. Our police officers are placed in great 
danger because back up is sometimes miles and hours away, if available 
at all.
    Today, there are 191 tribal/BIA law enforcement programs supported 
through Congressional appropriations to the BIA. One hundred eight 
tribes have Public Law 93-638 contracts (57 percent), 41 have self-
governance compacts (21 percent), and 42 tribes have BIA police (22 
percent). Additionally, many tribes supplement BIA funding with funding 
from the tribal treasury, grants from DOJ or other sources. Under 
Public Law 83-280 and similar legislation, the remaining tribes rely on 
state and local law enforcement for major crimes. In addition, there 
are three legal avenues for prosecuting felonies involving Indians on 
Indian lands: the Federal criminal justice system; Public Law 83-280; 
and other authorized state and local criminal justice systems.
    Various statutes and provisions of case law make jurisdictional 
determinations extremely difficult. The BIA encourages cross-
commissioning so that federal, tribal, and state authorities can make 
arrests for each jurisdiction. For instance, BIA offers qualified 
tribal and state officers Federal Special Law Enforcement Commissions 
so they can enforce Federal law. This closes loopholes and allows 
police to focus on investigating the crime instead of sorting out 
jurisdictional details, which can be done later with the assistance of 
legal counsel.
    Another part of the problem is the state of equipment such as 
vehicles, weapons, and radio communications equipment. Higher quality 
and better maintained equipment would help police officers in their 
response to crime in Indian country.
    Since FY 2001, we have requested and Congress has appropriated 
funds to implement the conversion from existing telecommunications 
equipment to the narrowband radio system to address the National 
Telecommunications and Information spectrum efficiency mandate. The 
mandate required that all Federal agencies convert to narrowband land 
mobile radio operations. Outdated radios and insufficient radio 
coverage place officers at risk and have led to a loss of lives in 
Indian country due to the inability of officers to radio for 
assistance. Reliable land mobile radio communication systems are vital 
in supporting program functions and improving public safety within 
Indian country. Land mobile radio is one of the most critical 
infrastructure components for tribal community safety and is the basis 
for wireless communication affecting public safety, education, public 
works, wildfire, and tribal communities.
    Tribes also face a mounting drug problem. Tribal leaders describe a 
methamphetamine crisis that has the potential to destroy an entire 
generation if action isn't taken. Some tribal leaders refer to the 
prevalence of the use and access to the drug as the second smallpox 
epidemic and rank it as the number one public safety problem on their 
reservations. On many reservations organized crime and drug cartels are 
producing and distributing the drug and are contributing to increased 
criminal activity in those communities.
    This Committee held a hearing on methamphetamine (meth) in Indian 
Country last April, in which one tribal chairwoman stated that an 
estimated 25 percent of the babies born on her reservation are addicted 
to methamphetamine. We are committed to helping Indian Country remove 
this scourge from its midst.
    In April 2006, the OJS published the results of the National 
Methamphetamine Initiative Survey. The survey consisted of 20 questions 
and was responded to by 96 agencies. Seventy-four percent of all 
respondents indicated that methamphetamine poses the greatest drug 
threat to the communities they serve. This is followed by marijuana at 
11 percent; Crack cocaine and powder cocaine followed at 6 percent. 
Five percent of responding agencies indicated powder cocaine as their 
primary drug problem. Heroin and pharmaceutical drugs rounded out the 
responses with 3 percent and 1 percent respectively.
    In response to the meth crisis, the BIA currently has eight 
certified drug enforcement officers to cover all of Indian country. The 
Safe Indian Communities Initiative will help combat the highly visible 
drug problem by enabling the development and provision of specialized 
drug enforcement training for BIA and tribal officers. As a result of 
the Initiative, more officers on patrol will have the essential 
knowledge and tools to break up drug trafficking, disrupt the 
activities and organization of crime groups, and seize controlled 
substances. This will lead to positive outcomes such as increased drug 
seizures and a substantial reduction in drug trafficking. Additionally, 
Initiative funding will allow the program to develop a meth public 
awareness campaign to educate Indian country on the dangers of the drug 
and how to combat those dangers. By certifying officers and educating 
the public about the dangers of meth, the BIA is taking proactive 
measures against meth and other drugs in Indian country to provide for 
safe and healthy Indian communities.
    As for detention centers, there are 82 detention facilities in 
Indian Country, some holding (one to two cells) facilities located on 
57 reservations. Of the 82 detention facilities, 27 are used to detain 
juveniles. Twenty jails are operated by the BIA and 62 by individual 
tribes. Most of these facilities were built in the 1960s and 1970s. 
Many of these facilities were designed to hold only 10-30 adult 
inmates.
    In September 2004, the Department's Office of the Inspector General 
(OIG) published a report, titled ``Neither Safe Nor Secure: an 
Assessment of Indian Detention Facilities,'' that highlighted the 
problems with Indian Country Detention facilities. The OIG found that 
serious safety, security, and maintenance deficiencies exist at the 
majority of BIA and tribal detention centers, and pose a hazard to 
inmates, staff, and the public. Out of this report came 25 
recommendations. As a result, a corrective action plan was developed to 
satisfy those recommendations and, to date, we have addressed 16 of the 
25 recommendations; the remaining 9 require additional resources to be 
fully resolved.
    One of the primary recommendations the OIG made was with regard to 
staffing shortages. Determining appropriate staffing levels for the 
detention facilities requires careful analysis of facility needs. To 
correct this safety deficiency, Corrections Division staff has 
calculated the ``Standard Space Staffing Requirement'' for each 
facility throughout Indian country. This study was careful to 
differentiate the size and layout of the facility according to a 
standard consistent with the standards of the National Institute of 
Corrections and Bureau of Prisons.
    As I mentioned above, the Safe Indian Communities Initiative 
includes $5 million in additional funding to staff, operate, and 
maintain BIA and tribal detention facilities for FY 2008. This will aid 
BIA in continuing to implement the recommendations of the 2004 report 
by the Department's OIG. These funds will provide for the hiring of 91 
additional corrections officers in Indian country.
    The detention center funding will be distributed to detention 
centers based on the results of the application of the staffing model. 
The additional funding will enable BIA to increase the percent of 
detention centers staffed to minimal safety standards, thereby helping 
to reduce the types of serious incidents identified in the IG report. 
The 2008 budget continues to aggressively confront construction and 
repair issues at detention centers by requesting $8.1 million for four 
major Facilities Improvement and Repair projects and several smaller 
projects designed to help bring Indian detention centers up to national 
standards.
    Some tribal leaders have approached us about regional and multi-
tribal use facilities. We recognize that ``regionalization'' will 
likely not work everywhere due to the size and remoteness of many 
reservations. However, we support the idea and are working with some 
tribes in regions where these facilities will benefit a number of 
communities located on or near Indian lands.
    BIA also operates the Indian Police Academy, which provides basic 
police training (16 weeks) and a variety of other police, jail and 
radio dispatch courses for tribal and BIA law enforcement and 
corrections officers. The Academy is co-located with the Department of 
Homeland Security's Federal Law Enforcement Training Center (FLETC) at 
Artesia, New Mexico. Academy staff provide basic police, criminal 
investigation, and detention coursework. In addition, the Academy 
offers numerous advanced training courses such as child abuse 
investigation procedures, community policing, drug investigation, use 
of force, firearms instruction, archeological resource protection, 
police management and supervision, crime scene processing, detention, 
and dispatcher training.
    Our training partnership has proven to be very cost effective 
because we share trainers and facilities. BIA and tribal criminal 
investigators receive specialized advanced training at the main FLETC 
facility in Glynco, Georgia. Select BIA and tribal law enforcement 
managers also participate in the FBI's National Academy in Quantico, 
Virginia. Many tribal communities choose to use respective state Peace 
Officers Standards and Training courses to supplement training of their 
police.
    Mr. Chairman, we want to thank you for holding this hearing on such 
an important subject for Indian Country. We will continue to work 
closely with you and your staff, tribal leaders, and our Federal 
partners to improve the safety of our people who reside on Indian 
lands.
    We will be happy to answer any questions you may have.

    The Chairman. Mr. Ragsdale, thank you very much.
    Next, we will hear from Ms. Schofield, who is the Assistant 
Attorney General in the Office of Justice Programs. Ms. 
Schofield, you may proceed.

 STATEMENT OF REGINA B. SCHOFIELD, ASSISTANT ATTORNEY GENERAL, 
       OFFICE OF JUSTICE PROGRAMS, DEPARTMENT OF JUSTICE

    Ms. Schofield. Mr. Chairman, Vice Chairman Thomas, I am 
Regina Schofield. Thank you for inviting me to testify today. I 
am very happy to represent the Department of Justice and 
Attorney General Gonzales to talk about OJP's efforts in law 
enforcement in Indian Country.
    In my testimony at the Committee's February 15 hearing, I 
described the department's Fiscal Year 2008 budget priorities. 
That information is also in my written statement which I am 
submitting for the record.
    Today, I would like to discuss OJP's efforts to improve 
outreach to tribal law enforcement. As you are aware, one of my 
primary goals at OJP is strengthening communications with 
tribes. Too often, tribal law enforcement can find it difficult 
to locate information about grants, training and other types of 
assistance. We want to find out how we can better serve tribal 
law enforcement, how we can get that information to them more 
quickly, how we can provide them with better training, and how 
we can make sure our funding resources respond to their actual 
needs.
    In February, I highlighted the Department of Justice's new 
website which was created specifically for Indian Country. That 
website features information on grants, training, technical 
assistance, publications, and conferences that can help tribal 
law enforcement. This new website is one of the many areas in 
which DOJ is reaching out to tribal law enforcement.
    In 2005, I established the Office of Justice Program's 
Council on Native American Affairs. This council coordinates 
OJP's efforts on behalf of tribes and serves as a liaison with 
other Department of Justice components on tribal issues. I am 
very happy to say that many of components within the Department 
of Justice have joined that council and are very active and 
energized.
    In addition, as the National AMBER Alert Coordinator, I am 
exploring ways to raise awareness about this program for 
residents in Indian country.
    We have placed an especially high priority on informing 
tribes this year about the Adam Walsh Child Protection and 
Safety Act. OJP has sent a series of targeted mailings to 
tribes regarding the Act. Our staff has traveled to many 
conferences and meetings to discuss the Adam Walsh Act with 
tribal representatives. We will continue to keep tribes and 
national tribal organizations informed of these new 
requirements and available resources as they become available.
    The Adam Walsh Act was one of just many topics that we 
covered at our four national Tribal Justice Training Safety 
sessions. These sessions have featured consultations and have 
brought together tribal leaders with government leaders to 
discuss local concerns and address Federal policies that impact 
tribes. We have completed two of these sessions, and I think 
the feedback has been very encouraging. Our next session is 
actually June 4 in Shelton, Washington.
    This training and technical assistance session also 
addresses another key challenge that we have that Indian tribes 
face. That is building their capacity to strengthen their law 
enforcement and criminal justice systems. We have invited other 
Federal agencies to participate in these sessions. It has 
created a very unique opportunity to address issues in 
collaboration, and I must say that the feedback that we have 
been receiving from the tribes has been very encouraging.
    Today, it is the Department of Justice, the Department of 
Interior's Bureau of Indian Affairs, the Department of Health 
and Human Services' SAMHSA has stepped up to the table. We have 
all been working together to develop collective solutions for 
tribes in addressing issues such as meth abuse. We will 
continue to invite other Federal agencies to join us in these 
efforts. We have an open door.
    Mr. Ragsdale just mentioned meth abuse. I know the 
Committee is aware that this is a growing problem in tribal 
communities. Last year, OJP developed a new meth investigation 
training specifically tailored to tribal law enforcement. We 
expect that several hundred tribal law enforcement officers 
will receive training through this initiative.
    This year, we are also supporting the Search Tribal 
Violence Prevention Technology Assistance Program. Through this 
program, Search will help tribes improve their criminal history 
records and strengthen information sharing. To that end, we 
will also be sponsoring the 2007 Tribal Crime Data and 
Information Sharing Conference this August in Phoenix, Arizona.
    I mentioned this before to the Committee, and I hope you 
know that my door is open to tribal leaders. I will continue 
meeting together with them. I will continue working to address 
their priorities. I will continue traveling in Indian Country 
to learn about their public safety needs first-hand.
    I would like to wrap up by saying that the Attorney General 
has pledged to work with sovereign Indian nations on a 
government-to-government basis. The Attorney General and the 
entire Department of Justice will honor our commitments and we 
will continue to assist tribal law enforcement in their efforts 
to promote safer communities.
    I welcome the opportunity to answer any questions you may 
have. Thank you.
    [The prepared statement of Ms. Schofield follows:]

 Prepared Statement of Regina B. Schofield Assistant Attorney General, 
                       Office of Justice Programs

    Chairman Dorgan, Vice-Chairman Thomas, and Members of the 
Committee: The Department of Justice appreciates the opportunity to 
testify before the Committee regarding the Department's support for law 
enforcement in Indian country. As the Committee is aware, and as we at 
the Justice Department know as well, the needs of Indian tribal 
governments in combating crime and violence continue to be great. The 
President and the Attorney General remain committed to addressing the 
most serious law enforcement problems in Indian country, including 
substance abuse, domestic violence, and other violent crimes, and to 
ensuring that federally recognized Indian tribes are full partners in 
this effort.
    My name is Regina B. Schofield, and I am the Assistant Attorney 
General for the Office of Justice Programs (OJP). One of my highest 
priorities is strengthening the relationship between tribes and the 
Federal Government. It's an opportunity that I am privileged to have, 
because OJP plays a critical role in combating crime in Indian country.
    OJP, the Department of Justice's Office on Violence Against Women 
(OVW), and the Office of Community Oriented Policing Services (COPS) 
continue to be the Department's primary resources for funding and other 
assistance in Indian country. Through these offices, the Department 
identifies emerging criminal and juvenile justice system issues, 
develops new ideas and tests promising approaches, evaluates program 
results, collects statistics, and disseminates these findings and other 
information to Federal, state, and local units of government, tribal 
communities, and criminal justice professionals. DOJ works to prevent 
and control crime and help crime victims by providing funding to and 
assisting federally recognized Indian tribes, state and local 
governments, law enforcement, prosecutors, courts, corrections, and 
other service providers. OJP, OVW, and COPS continue their specific 
support to federally recognized Indian Tribes and Alaskan Native 
Villages and Corporations by providing grants to support innovative 
approaches to breaking the cycle of drugs, delinquency, crime and 
violence, and through technical assistance and training to provide 
tribal leaders with the knowledge and skills required to address these 
issues.
    One of my primary goals at OJP is strengthening communication with 
tribes. Too often tribal government officials, law enforcement and 
others who work on criminal justice issues find it difficult to locate 
information about grants, training, and other types of assistance that 
may be available to them.
    Last November the Department of Justice launched a new Website 
created specifically for Indian country--
www.tribaljusticeandsafety.gov. The Website serves as a comprehensive 
resource, featuring information on law enforcement, corrections, crime 
victim issues, juvenile justice, and civil rights. It also provides 
information on grants, training, technical assistance and conferences 
that can be of help to tribal communities, Federal agencies and the 
general public.
    The new Website is one of many areas in which DOJ is reaching out 
to tribal governments. In 2005, I established a Justice Programs 
Council on Native American Affairs. The council coordinates OJP's 
efforts on behalf of tribes and serves as a liaison with other 
Department of Justice components on tribal issues. We want to find out 
how we can better serve tribal communities, how we can get information 
to them more quickly, how we can provide them with better training, and 
how we can make sure our funding resources respond to their needs. Last 
month I expanded the Council membership to include all senior level OJP 
leadership and representatives from other Department of Justice offices 
and agencies. During our most recent meeting held January 29, 2007, we 
established several workgroups to respond to OJP's Strategic Plan for 
2007-2012 and tribal leaders' priorities:

        1) Tribal Justice & Safety Web Team/Tribal Education & Outreach 
        Workgroup
        2) IT Capacity Building/Information Sharing Workgroup
        3) Tribal Grants Policy Workgroup
        4) Tribal Youth Initiatives Workgroup
        5) Tribal Economic/Codes Development Workgroup
        6) OJP Federal Workforce Education Program on American Indian 
        and Alaska Natives Workgroup

    These workgroups are increasing our responsiveness to tribal 
concerns by improving management and efficiency.
    I have met with numerous tribal delegations to hear tribal leader 
concerns and issues, expand existing relationships to OJP, and create 
new partnerships with tribal leaders on tribal justice and safety 
issues for Native communities. In October 2006, I convened a tribal 
leader roundtable meeting in conjunction with the National Congress of 
American Indians, and again in February 2007 to listen to their 
concerns. I will continue to meet with tribal leaders and visit tribal 
communities. It is essential that they know that my door is always 
open.
    One of the many challenges that federally recognized Indian Tribes 
and Alaskan Native Villages and Corporations face is building their 
capacity to strengthen their law enforcement and criminal justice 
systems. As the Committee is aware, methamphetamine abuse is a growing 
problem in tribal communities. With the proximity of some tribal lands 
to international borders, tribal communities have been targeted by meth 
traffickers. OJP has been providing methamphetamine investigation 
training for law enforcement, including tribal law enforcement, for 
many years. The training has been delivered by the Center for Task 
Force Training (CenTF), an OJP grantee that is supported by the 
National Narcotics Officers' Association.
    This year I established four Tribal Justice and Safety Training and 
Technical Assistance sessions around the country and I invited all 
other Federal departments and agencies to join me. I am pleased that 
the Department of Health and Human Services--Substance Abuse and Mental 
Health Services Administration has partnered with us in this effort for 
all of our sessions, and beginning with our second session in March 
2007, we were joined by the Department of the Interior, Bureau of 
Indian Affairs. These sessions have been highly successful and continue 
to grow. It has been a wonderful collaboration among three Federal 
departments thus far. I am pleased that the Small Business 
Administration will participate at our June 2007 session in Washington 
State, and the U.S. Department of Housing & Urban Development has 
expressed a desire to participate in future events.
    Additionally, we are pleased to support the White House Office of 
National Drug Control Policy, which will host a national Tribal 
methamphetamine summit in August as part of our fourth session. At the 
request of Tribal leaders, we were asked to broaden our training and 
technical assistance sessions to include consultation. We have 
responded to this request by establishing tribal consultation forums as 
a part of the three remaining sessions, and concluded our first one on 
March 27, 2007. The next session is scheduled for June 4 and the final 
session for this fiscal year is scheduled for July 31.
    Our Bureau of Justice Statistics will also host a 2-day conference 
in August 2 and 3, 2007, in conjunction with our fourth session that 
will focus on Crime Data Collection and Information Sharing for tribal 
law enforcement, justice and tribal leaders.
    Last year OJP developed a new methamphetamine investigation 
training specifically tailored to tribal law enforcement. This new 
course will provide tribal law enforcement what they need to know to 
conduct successful and safe methamphetamine investigations. We expect 
that, by the end of March 2008, several hundred tribal law enforcement 
officers will receive training through this initiative.
    Also last year, OJP launched a National Drug Endangered Children 
Resource Center, which will provide critical information to the Federal 
Government, tribal governments, states, and local communities on how to 
best help children hurt by drugs, including methamphetamine. This 
effort will help drug enforcement officers and child welfare workers 
aid children found in environments where drugs are manufactured, sold, 
or used. The Resource Center will also raise awareness of these 
children's needs and provide a forum for leading experts and 
researchers to propose solutions. We hope that the Resource Center will 
also be a useful tool for tribal communities, especially in areas with 
methamphetamine problems.
    Another way to build capacity is to improve tribes' ability to 
share information. Our Bureau of Justice Statistics (BJS) found that 
less than 10 percent of tribal criminal justice agencies are 
electronically linked within their jurisdictions. This makes it very 
difficult for tribal law enforcement to be an effective part of a 
national intelligence network. Through the Global Justice Information 
Sharing Initiative, tribal, Federal, state, local, and international 
organizations have worked together to overcome the barriers to justice 
information sharing. Tribal representatives have been an important part 
of these efforts.
    Last spring in Albuquerque, we held a training conference for 
tribal officials to address information sharing in Indian country. The 
conference discussed promising tribal information sharing initiatives. 
We talked about national standards on justice information sharing. We 
worked toward strengthening tribal capacity to collect, manage, and 
analyze crime data.
    I am constantly striving to improve our training and technical 
assistance efforts. OJP recently established a Strategic Planning and 
Action Committee (StratPAC) to identify ways to improve the efficiency 
and effectiveness of these efforts. One of the first issues that 
StratPAC will address is enhancing tribal training and technical 
assistance efforts.
    Child abuse and child sexual assault, though not unique to Indian 
country, is a particularly serious problem in many tribal communities. 
Our Office for Victims of Crime (OVC) helps tribes build their capacity 
to handle serious child abuse and child sexual assault cases through 
the Children's Justice Act (CJA) Partnerships for Indian Communities 
Discretionary Grant Program. The program has helped tribes make 
numerous systemic improvements in the handling of child abuse cases. 
The CJA grant program has made a difference by helping tribes improve 
the investigation and prosecution of child abuse cases; reduce the 
burden and trauma to child abuse victims; revise tribal codes and 
procedures to better address child sexual abuse; adopt culturally 
sensitive services and practices into the handling of child abuse 
cases; and hire specialized staff to handle these cases. Since 1989, 
OVC has awarded more than $14,566,421 to approximately 231 tribes and 
nonprofit tribal agencies through this program. We are requesting $3 
million for this program in Fiscal Year 2008, which maintains the 
current funding level.
    OVC also supports efforts to help crime victims in Indian country 
through its Tribal Victim Assistance (TVA) Discretionary Grant Program. 
TVA funds programs that help tribal victims of many different types of 
crimes, including child abuse, DUI, and gang violence. These programs 
provide assistance such as counseling, referrals, emergency services, 
court accompaniment, and help in obtaining victim compensation. TVA is 
supported through the Crime Victims Fund, which obtains money from 
Federal criminal fines, forfeited bail bonds, penalty fees, and special 
assessments.
    Another DOJ effort in helping reduce and prevent crimes against 
children is the Dru Sjodin National Sex Offender Public Web Site, which 
was instituted by Attorney General Gonzales in May 2005. The site 
provides real-time access to public sex offender data nationwide with a 
single Internet search. It allows parents and concerned citizens to 
search existing public state and territory sex offender registries 
beyond their own localities. Currently all 50 states, the District of 
Columbia, and two territories are linked to the site. We are continuing 
to explore ways to help tribal governments that want to participate 
become part of the effort.
    As the Committee is aware, the Adam Walsh Child Protection and 
Safety Act of 2006, established new sex offender registration 
requirements. Earlier laws did not include sex offenders convicted in 
tribal courts or those entering tribal lands following a conviction 
elsewhere. Some sex offenders considered tribal reservations to be safe 
havens. Through the tools provided by the Adam Walsh Act, we are 
working with tribes to change this. Under the Act, tribes can either 
take on the responsibility for sex offender registration themselves or 
delegate this responsibility to the state. This process will not be 
easy, but we will provide tribes with the guidance and training to make 
it work.
    I also want to make you aware of another initiative I am privileged 
to lead. As the National AMBER Alert Coordinator, I am exploring ways 
to raise awareness about the AMBER Alert program for residents in 
Indian country. (The AMBER Alert program is the Nation's first early 
warning system for missing and abducted children who are presumed to be 
in imminent danger.)
    Key Federal, state, and private sector individuals have begun 
implementing ways to bring AMBER Alert training to Native American law 
enforcement personnel and their respective tribal communities. In 
addition, the Bureau of Indian Affairs, Office of Justice Services at 
the Department of the Interior is now represented on the AMBER Alert 
Working Group. We held the most recent AMBER Alert National Conference 
in Albuquerque, New Mexico last July. Albuquerque was selected in order 
to facilitate a related meeting that brought together various tribal 
representatives to discuss issues relating to AMBER Alert and missing 
children within tribal government jurisdiction.
    We also recognize the need for improved research on crime in Indian 
Country, including what sort of programs are most effective in 
combating violence and substance abuse. Our National Institute of 
Justice (NIJ) is developing a National Tribal Crime & Justice Research 
and Evaluation Agenda. NIJ has several tribal research projects 
underway, including an evaluation of the Tribal Victim Assistance 
Program and a review of larger issues of criminal justice 
administration in Indian Country.
    The President's proposed Fiscal Year 2008 Budget creates new 
competitive grant programs that will provide states, localities, and 
Indian tribes with considerable flexibility to address their most 
critical needs. Many of our current state and local law enforcement 
will be consolidated into the Byrne Public Safety and Protection 
Program. States, local governments and tribal governments would be able 
to use Byrne funds for purposes such as comprehensive gun and gang 
violence programs; drug enforcement and treatment; improved law 
enforcement information sharing; enhanced use of DNA evidence; 
combating domestic trafficking in persons; expanding prisoner re-entry 
initiatives; and improving services for crime victims. We are 
requesting $350 million for this program in Fiscal Year 2008.
    Another new initiative would be the Violent Crime Reduction 
Partnership Program. This will help communities suffering from high 
rates of violent crime form law task forces including local state, 
tribal and Federal agencies. We are requesting $200 million for this 
program in Fiscal Year 2008.
    We also propose consolidating many of our juvenile justice and 
child victimization programs into a new Child Safety and Juvenile 
Justice Program. This will assist states, local governments and tribal 
governments in reducing child exploitation and abuse; strengthening 
juvenile justice systems; and bolstering school safety efforts. We are 
requesting $280 million for this program in Fiscal Year 2008.
    I pledge to this Committee that OJP will work diligently to ensure 
that tribes have the information and develop the capacity they need to 
apply for funding under these new programs.
    The Department also recognizes the importance of addressing 
domestic violence in Indian country where victims often lack the basic 
resources necessary to access services, such as phones and 
transportation. There are also complex jurisdictional difficulties, 
which vary from state to state. For example, just determining who the 
responding law enforcement agency should be in a violent situation can 
often be problematic and hinder appropriate response.
    In Fiscal Year 2006, the Department's Office on Violence Against 
Women (OVW) provided funding to 85 tribal grantees for a total of $28.3 
million. The President's Fiscal Year 2008 Budget requests a grand total 
of $370 million for OVW grant programs. In the past, tribal governments 
and tribal organizations had to submit separate applications to obtain 
money from each OVW program. For FY 2008, the Department has proposed a 
major grants consolidation including a single, competitive OVW grant 
program--eliminating formulas. Under the new proposal only one 
application will be necessary. As tribal applicants often lack the 
infrastructure to apply for funding successfully under all of the 
available grant programs, these changes make funds more accessible to 
these grantees.
    OVW tribal grantees are reporting that VAWA funds are helping to 
make significant changes in the response to violence against Indian 
women. Grantees are reporting successes such as increased 
accountability for offenders; increased safety for victims; 
collaboration between criminal justice and victim services; enhanced 
training for criminal justice personnel; and heightened awareness of 
domestic violence, sexual assault, and stalking.
    In addition to the grant programs administered by the Department of 
Justice, we also strive to fulfill our statutory responsibilities to 
Indian country through the provision of direct services. These services 
are not generally represented in a specific Indian country line item, 
but are included in the general litigation activities of the 
Department.
    For example, the Office of Tribal Justice (OTJ) provides a single 
point of contact within the Department for meeting the broad and 
complex Federal responsibilities to federally recognized Indian tribes. 
Currently, the majority of the staff at OTJ are American Indian, all of 
whom have lived and worked in Indian country. As the Department's 
primary liaison with tribal governments, OTJ staff travel to Indian 
reservations and communities and serve as a point of coordination, 
repository of both legal and practical knowledge, and source of 
information about Indian country for the Department.
    The Administration wants to make sure that government programs work 
well for the American people. Last year, to ensure greater government 
transparency and accountability, the Administration launched a new 
Website, ExpectMore.com. The site includes information on what programs 
are working, what programs need improvement, and the Program Assessment 
Rating Tool.
    Mr. Chairman, Attorney General Gonzales has pledged to honor our 
statutory duties and to work with sovereign Indian Nations on a 
government-to-government basis. The Attorney General and the entire 
Justice Department will honor this commitment and continue to assist 
tribal justice systems in their effort to promote safe communities. We 
also recognize that the most effective solutions to the problems facing 
tribes come from the tribes themselves, and that our role is to help 
them develop and implement their own law enforcement and criminal 
justice strategies. We are confident that our current activities and 
our Fiscal Year 2008 proposed budget reflect these priorities. This 
concludes my statement Mr. Chairman. I would welcome the opportunity to 
answer any questions you or Members of the Committee may have. Thank 
you.

    The Chairman. Ms. Schofield, thank you very much for being 
here.
    Next, we will hear from the Honorable Matthew Mead, who is 
the U.S. Attorney for the District of Wyoming, from Cheyenne, 
Wyoming. Mr. Mead, thank you very much for being with us.

STATEMENT OF MATTHEW H. MEAD, UNITED STATES ATTORNEY, DISTRICT 
                           OF WYOMING

    Mr. Mead. Thank you, Mr. Chairman, Vice Chairman Thomas, 
and Members of the Committee. I am Matthew Mead, the United 
States Attorney for the District of Wyoming. I am a member of 
the Native American Issues Subcommittee of the Attorney 
General's Advisory Committee.
    It is an honor to appear before you to provide information 
about crime in Indian Country. I have been a prosecutor most of 
my legal career, and speak today generally from a prosecutor's 
perspective.
    First, let me say while Indian Country is in many respects 
unique, Native Americans share the same aspirations as all of 
us. They search for a good quality of life, including a decent 
job, preservation of culture and education, the well-being of 
their children, and freedom from drug and alcohol addiction.
    But it is hard to address quality of life issues in Indian 
Country as elsewhere, when personal security and law 
enforcement concerns are not sufficiently addressed so that 
citizens feel safe. In Wyoming where I serve, there is one 
large reservation, the Wind River Indian Reservation, which is 
located in the west-central part of the State. The reservation 
covers most of Fremont County and is home to two tribes: the 
Northern Arapaho and Eastern Shoshone. This is the only 
reservation in the United States that two tribes share equally, 
and about 10,000 members of the tribe reside there.
    It has been a privilege for me to be able to work closely 
with the Joint Business Council of the two tribes during my 
tenure as United States Attorney. It has also been a privilege 
to work closely with the BIA, BEA, FBI, and State and local 
officers who have the courage and wisdom to form partnerships 
to provide law enforcement services to the reservation.
    I cannot say enough about the efforts these folks make each 
and every day to bring stable governance and a framework for 
law and order to the area.
    Despite the hard work and efforts of many to make the 
reservations safer and better places to live, law enforcement 
concerns remain in these areas. These include a high incidence 
of violent crime, a pervasive problem with alcohol and drug 
abuse, increased drug trafficking especially in 
methamphetamines, the continuing need to provide support to 
victims, and strained law enforcement resources.
    Because of these concerns, cooperative law enforcement 
efforts take on greater significance in Indian Country. When I 
testified last spring at this Committee's hearing about meth 
use in Indian Country, I spoke about the numerous efforts 
undertaken nationally in States like Oklahoma, Arizona, Texas, 
and elsewhere to combat such use.
    With respect to Wyoming efforts, I spoke about the 
dismantling of two significant drug organizations which 
targeted the Wind River Indian Reservation. The Goodman case, 
which involved one of the two organizations, had 25 defendants 
and was still in progress at the time. It has now been 
concluded with all defendants, including a former tribal judge, 
convicted.
    Since my testimony last spring, a related investigation 
resulted in the indictment of 63 individuals, many of whom 
lived on or around the reservation, and the dismantling of a 
third drug ring. Of the 63 defendants, 54 have been convicted 
of methamphetamine-related offenses to date. So we continue to 
aggressively prosecute drug traffickers who prey on Native 
Americans.
    However, the serious substance abuse problem that exists on 
reservations continue to lead to many crimes, including crimes 
of violence. Victims of violent crime have been mentally 
traumatized, physically hurt or abused, and in some cases 
maimed or killed. They require a great deal of support, 
including medical care, mental health care, social services, 
and services provided by the justice system related to the 
criminal proceeding. To assist in this area, the U.S. 
Attorney's Office and the Federal Bureau of Investigation 
employ victim support personnel and tribes often have their own 
victim advocates.
    Federal prosecutors recognize the unique challenges we face 
on reservations. Investigations could become more difficult 
because the communities are tightly knit. Those who fall 
victims to crimes like sexual assaults or become witnesses are 
sometimes too afraid or embarrassed to report crimes. Those 
engaged in illegal activities likely recognize and distrust 
outsiders, making undercover work more challenging.
    These challenges include outreach and cooperative law 
enforcement efforts. We have done so in Wyoming. Collaboration 
between tribal, State and Federal law enforcement and the 
support of tribal leaders have been essential to the successes 
of law enforcement efforts on the Wind River.
    I commend the Committee for its continued interest in 
Indian law enforcement issues. We in the Department of Justice 
and the U.S. Attorney's Office realize without the security 
provided by effective law enforcement, other quality of life 
issues for Native Americans will suffer. Crimes committed in 
Indian Country remain a high priority and we continue to 
explore ways to leverage our resources and increase our 
effectiveness.
    This fact remains, though: the magnitude of crime against 
Native Americans is a tragedy, not just for the victims and the 
victims' families, but for all of us collectively because 
Native Americans provide so much history, culture and 
leadership to our Country.
    Thank you. I would be happy to answer any questions.
    [The prepared statement of Mr. Mead follows:]

 Prepared Statement of Matthew H. Mead, United States Attorney for the 
                          District of Wyoming

    Chairman Dorgan, Vice Chairman Thomas, and Members of the 
Committee, it is an honor to appear before you today to provide general 
information about crime in Indian Country. I am Matthew Mead, the 
United States Attorney for the District of Wyoming. Much of my legal 
career has been spent as a prosecutor at the state and federal levels 
in Wyoming, and my remarks today are largely from a prosecutor's 
perspective.
    I am also a member of the Native American Issues Subcommittee of 
the Attorney General's Advisory Committee. The Native American Issues 
Subcommittee consists of 23 United States Attorneys who have 
significant amounts of Indian country in their respective districts. 
The members of the Subcommittee work actively, individually and as a 
group, to ensure that the law enforcement needs of Indian country are 
met, and consult frequently with tribes on law enforcement and 
prosecution issues important to Native Americans.
    The United States Attorneys, under the direction of the Attorney 
General, are responsible for investigating and prosecuting those who 
violate our Nation's laws, for asserting and defending the interest of 
the United States, its departments and agencies through the conduct of 
civil litigation, and for representing the United States in appellate 
courts. There are 93 United States Attorneys located throughout the 
United States, Puerto Rico, the Virgin Islands, Guam, and the Northern 
Mariana Islands. United States Attorneys are appointed by, and serve at 
the discretion of, the President of the United States, with the advice 
and consent of the U.S. Senate. United States Attorneys report to the 
Attorney General through the Deputy Attorney General. Each United 
States Attorney is the chief federal law enforcement officer within his 
or her judicial district. With regard to Indian country, United States 
Attorneys enforce the Major Crimes Act (18 U.S.C. Sec. 1153) and 
assimilated crimes as provided in the General Crimes Act (18 U.S.C. 
Sec. 1152).
    Indian country is unique in many ways, but at the core it is not 
unique in that the people in Indian country are seeking what we all 
seek. They seek, and they deserve, a good quality of life, including 
decent jobs, educational opportunities, the well-being of their 
children and freedom from substance and alcohol addictions.
    Yet, it is often hard to address issues relating to quality of 
life, when personal security and law enforcement concerns are not 
sufficiently addressed in a manner where citizens feel safe. This is as 
true in Indian country as it is elsewhere. While all citizens have an 
individual responsibility to make their communities a better place, it 
is also a basic responsibility of any government to provide a security 
level that enables citizens to make their lives better. As a 
prosecutor, I see in my work the value of good law enforcement. I see 
that adequate law enforcement is critical in providing an environment 
where citizens feel safe enough to take the steps necessary to improve 
their lives and the lives of their neighbors.
    The reservation located in the District of Wyoming is the Wind 
River Indian Reservation (``WRIR'' or ``the Reservation''). The 
Reservation consists of 2.2 million acres (3,500 square miles). It is 
the only reservation in the United States that two tribes, the Northern 
Arapaho and Eastern Shoshone, share equally. The two tribes taken 
together have about 12,000 members, of whom around 10,000 reside on the 
Reservation.
    The law enforcement issues I would like to address today in my 
remarks are those that have arisen on the Reservation in my District 
with which I am personally familiar, namely, drug trafficking, violent 
crime, jurisdiction, victim support, law enforcement resources, and 
cooperative efforts.

Drug Trafficking
    There continues to be a pervasive problem on Indian reservations 
with alcohol and drug abuse. Drug abuse has led to a higher incidence 
of drug trafficking to meet the demand for illegal substances. Recent 
years have seen an increase in the use of methamphetamine on 
reservations due in part to that drug's low cost and highly addictive 
nature. Combating methamphetamine use in Indian country was, in fact, 
the subject of a hearing held by this Committee last April, at which I 
appeared. I recounted in my testimony the numerous efforts being 
undertaken nationally in this area and our successes locally in 
Wyoming.
    When I testified before this Committee last spring, I spoke about 
the dismantling of the Goodman and Sagaste-Cruz organizations. At that 
time, the Goodman case, which involved 25 defendants, was still in 
progress. It has since been concluded with all defendants, including a 
former tribal judge, convicted. Since that time, the related Legarda 
investigation resulted in the indictment of 63 individuals, many of 
whom lived on or around the Reservation. Of the 63 defendants, 54 have 
been convicted of methamphetamine related offenses. We continue to 
prosecute significant drug traffickers who prey on Native Americans and 
other population groups.

Violent Crime
    The incidence of violence on reservations across the country 
continues to be high, generating a variety of offenses, such as 
homicide, assault, sexual assault, sexual abuse, kidnaping, arson and 
firearms violations. It is therefore not surprising that the vast 
majority of Indian country criminal matters referred to United States 
Attorney's Offices for prosecution involve violent crime. The 
successful prosecution of these cases remains a high priority for the 
United States Department of Justice and United States Attorney's 
Offices. In particular, the Department and United States Attorney's 
Offices treat matters, like sexual assaults and abuse, seriously and 
understand the grave impact such offenses have on the victims, their 
families, and their communities. Sexual assaults are a recognized 
problem on most Reservations. In Wyoming, as in other U.S. Attorney's 
Offices, when sexual assault cases are reported, they are thoroughly 
investigated; and, as with all other cases, if there is evidence to 
move forward, the cases are aggressively prosecuted.
    Certain studies have been undertaken recently to develop statistics 
to assess violent crime, including sexual assault, in Indian country. 
The Violence Against Women Act of 2005 (Pub.L. 109-162)(``VAWA 2005'') 
has a chapter devoted solely to safety for Indian women. VAWA 2005 
calls for two national studies focused on violence against Indian 
women. First, the National Institute of Justice, in consultation with 
the Office on Violence Against Women, is charged with conducting a 
national baseline study to examine violence against Indian women. The 
study is to include the crimes of domestic violence, dating violence, 
sexual assault, stalking, and murder. The study will also evaluate the 
effectiveness of federal, state, tribal and local responses to these 
crimes, and it is to provide recommendations to improve these 
governmental responses. According to VAWA 2005, the report is to be 
completed within 2 years.
    Second, the Secretary of Health and Human Services, acting through 
the Indian Health Service and Centers for Disease Control and 
Prevention, is to conduct a study to obtain a national projection of 
the incidence of injuries and homicides resulting from domestic 
violence, dating violence, sexual assault, or stalking committed 
against American Indian and Alaskan native women and the cost of 
providing health care for these injuries. This report, too, is to be 
completed within 2 years. It is the hope of those working to combat 
violence against Indian women that these two studies will provide a 
clearer picture of how these crimes affect all native women, those 
living on a reservation, or in a remote village, as well as those women 
living in an urban environment.
    In Wyoming, as in other Districts, we have taken a number of steps 
over the years to improve our ability to address violent crime cases 
efficiently and effectively. In 1996, we established a branch office in 
Lander, Wyoming, adjacent to the Reservation, in order to ensure that 
attorney personnel were readily available to Indian country law 
enforcement agents, Indian victims, and witnesses. In 2002, we received 
additional Indian country resources, which we utilized to expand the 
number of personnel working in the Lander branch office, thereby 
helping to support a growing caseload.
    Since nearly all of our Indian country violent crime cases involve 
Victims, Victim advocates working in my office and in the Lander FBI 
Office spend considerable time with Indian victims and witnesses, 
explaining the prosecution process, notifying victims of court 
proceedings, and making referrals to social service providers as 
necessary. Taken together, our accessibility to the Indian populations 
we serve and our outreach efforts to Indian victims and witnesses have 
played a key role in our efforts to address violent crime.
    In addition, nationwide, the Federal Bureau of Investigation (FBI) 
has 114 agents devoted strictly to Indian country matters. Such agents 
work closely with their BIA law enforcement counterparts, as well as 
state and local agents, to investigate all serious crimes on 
reservations.

Criminal Jurisdiction in Indian Country
    Jurisdictional issues can always be problematic. Jurisdictional 
issues can arise between cities and counties, between states, and 
between Federal and state governments. So, too, in Indian country. 
Jurisdictional issues are not unique to Indian Country but they are 
more complex than may be the case elsewhere.
    One of the first questions a prosecutor always has to ask and 
answer in a criminal case is where jurisdiction lies. It is a question 
that has to be resolved in every single criminal case. In Indian 
country cases, an additional sovereign, a tribal sovereign, is included 
with the mix of entities (federal, state, local) that might have 
jurisdiction over a particular case.
    Jurisdiction over Indian country offenses could be a topic all its 
own. Generally speaking, however, in Indian country cases, jurisdiction 
most often depends on the location of the crime (whether it occurred in 
Indian country, as defined by statute or court decisions), the type of 
crime (misdemeanor or felony), the status of the victim (Indian or non-
Indian), and the status of the perpetrator (Indian or non-Indian).
    On November 12, 2001, the President reaffirmed the long standing 
policy of the United States to work with federally recognized tribes on 
a government to government basis and to support and respect tribal 
sovereignty and self-determination for tribal government. It is in this 
context that all jurisdictional issues must be addressed.
Victim Support for Crimes in Indian Country
    As noted above, many of the crimes that occur in Indian country are 
violent crimes, including rapes and assaults. These crimes all have 
victims, who have been mentally traumatized, physically hurt or abused, 
and in some cases killed. The victims, including the person who was the 
object of the crime and that person's family, often need a great deal 
of support--ranging from medical care, mental health care, and social 
services to services provided by the justice system related to the 
criminal proceedings. The latter services are provided in U.S. 
Attorney's Offices nationwide through Victim-Witness Coordinators, 
Advocates and Assistants. The FBI has victim support personnel and 
tribes often have their own victim advocates.
    Services for sexual assault victims on the WRlR include Sacred 
Shield, a federally funded shelter for battered and sexually assaulted 
women and With Eagles Wings, a state-funded counseling service.
    Support services for victims are an essential component of law 
enforcement efforts on Indian reservations. Without them, people who 
have been victimized probably would not learn about and be able to 
exercise their rights as criminal cases progress, and they would not 
have the opportunity to pick up the pieces of their lives and try to 
move on.

Law Enforcement Resources in Indian Country
    The resources available in Indian country, both in terms of law 
enforcement personnel and jail facilities, and the comparison between 
those resources and those available to law enforcement outside Indian 
country have been covered in other remarks before this Committee. We 
agree that the Safe Indian Community Initiative and its inclusion in 
the President's FY 2008 budget request, which would result in 
additional law enforcement resources for Indian country, is a great 
step. Like all spending measures, however, there must be accountability 
for expenditures, as well as demonstrable results.

Successful Cooperative Law Enforcement Efforts in Wyoming
    Collaboration between tribal, state, and federal law enforcement, 
and the support of tribal leaders, have been critical to the success of 
law enforcement efforts on the WRIR in Wyoming. As I have mentioned 
above, recent successes include the dismantling of three groups engaged 
in extensive drug trafficking operations on the Reservation.
    In Wyoming, collaboration has been, and continues to be, greatly 
enhanced by outreach efforts undertaken by the United States Attorney's 
Office to build rapport with the WRIR's Joint Business Council and the 
two tribes it represents, the Northern Arapaho and Eastern Shoshone. 
These outreach efforts include the following: keeping all lines of 
communication open, ensuring that Indian victims and defendants are 
treated with respect and sensitivity, hosting an annual Native American 
Conference in Fremont County which always highlights victims' issues, 
attending cultural events important to the Indian community, and 
meeting regularly with the Joint Business Council. An important 
outgrowth of the strong working relationship we have developed with the 
Tribes is a cooperative law enforcement agreement between federal, 
state, local and tribal agencies, which makes optimal use of available 
law enforcement resources in and around the Reservation.
    In order to better facilitate the prosecution of crimes in Indian 
country, and to better serve the tribes throughout the United States, 
some Assistant United States Attorneys have been designated as ``tribal 
liaisons'' in their Federal districts, which include Indian country. 
These Assistant United States Attorneys have the opportunity to 
specialize in matters that affect tribal communities. Because of their 
special assignments to the tribes, tribal liaisons strive to create 
positive relationships not only with tribal leaders and tribal law 
enforcement officers, but also with Federal law enforcement officers 
who regularly serve reservations. The Assistant United States Attorneys 
who serve as tribal liaisons regularly assist the tribes with a wide 
variety of issues and civil matters that may affect Federal interests. 
Nearly all tribal liaisons assume these difficult, but rewarding, 
positions, because they care about the people in these communities. 
Some are tribal members themselves or have Native American ancestors.
    We are cognizant of the unique challenges to be faced on the 
Reservation. Investigations can be more difficult because the setting 
involves tightly knit communities, with family members often living in 
close proximity to one another, even though the Reservation itself may 
be geographically large. Indian family members who may be witnesses to 
illegal activities are often under intense pressure not to cooperate 
with authorities. Those who fall victim to crimes, or become witnesses 
to crime, like sexual assaults, are sometimes too afraid or embarrassed 
to report crimes in a timely fashion. Native Americans engaged in 
illicit activities on Reservations are very cognizant and distrustful 
of outsiders, making undercover work more challenging. Wiretaps 
conducted on the Reservation may not be as effective as those 
elsewhere, since telephone use by perpetrators can be sporadic or 
greatly limited. There is also the desire to handle problems internally 
within the tribes. These challenges demand that we use all of the tools 
at our disposal, including the outreach and collaborative law 
enforcement efforts mentioned above.

Conclusion
    I commend the Committee's continuing interest about law enforcement 
issues in Indian country. These issues are a high priority for the 
Department of Justice and the United States Attorneys' Offices because 
we recognize that without the security provided by effective law 
enforcement, other quality of life issues will suffer. The magnitude of 
crime against Native Americans is a sadness--a tragedy--not just for 
the victims, but for all of us collectively because Native Americans 
provide so much history, culture, and leadership to this country. I 
appreciate the opportunity to address the Committee on such a 
compelling topic. I will be pleased to answer any questions you may 
have.

    The Chairman. Finally, we will hear from Mr. Scott Burns, 
the Deputy Director for State, Local and Tribal Affairs, Office 
of National Drug Control Policy. Mr. Burns, thank you for 
joining us.

STATEMENT OF SCOTT BURNS, DEPUTY DIRECTOR FOR STATE, LOCAL AND 
     TRIBAL AFFAIRS, OFFICE OF NATIONAL DRUG CONTROL POLICY

    Mr. Burns. Thank you, Chairman Dorgan, Vice Chairman 
Thomas, Senator McCaskill. Thank you for the opportunity to 
testify today. I am Scott Burns. I am the Deputy Director for 
State and Local Affairs, and with the 2006 reauthorization of 
our office, the Office of National Drug Control Policy, I now 
have the title of State, Local and Tribal Affairs. So those of 
us in our office will redouble our already-strong commitment to 
reducing drug abuse in Indian Country.
    ONDCP believes that the three-pronged strategy of stopping 
drug use before it starts through prevention and education 
efforts; through healing America's drug users to include those 
in Indian Country by early detection and increasing treatment 
capacity; and by disrupting the market by targeting and then 
totally dismantling drug trafficking organizations, is critical 
to combat drug abuse.
    Although we are here today to discuss law enforcement 
efforts, I think it is important to make brief mention of some 
of the overall efforts that we are engaged in.
    Working with the Partnership for a Drug-Free America, 
Interior, HHS, the Department of Justice, and the National 
Congress of American Indians, we are developing a new public 
awareness campaign targeting methamphetamine use in Indian 
Country. We are making sure that ONDCP's Drug-Free Communities 
Program is being accessed in Indian Country by conducting 
special training sessions regarding the application process in 
an effort to expand on the 18 grantees currently serving 
American Indians and Alaska Natives. We have had two of those 
sessions so far this past year. Ninety representatives from 
Indian Country showed up at the first one, and 50 showed up at 
the second one, and there is one more planned.
    We are expanding the Screen and Intervene Program in Indian 
Country, currently in place in 17 States and one tribal 
location, the Cook Inlet Tribal Council. We want to expand 
options for access to recovery treatment moneys in Indian 
Country. The program is now in 14 States and it is in one 
tribal area.
    Regarding the focus of this hearing, and U.S. Attorney Mead 
touched on it, we are engaging the high intensity drug 
trafficking area, or HIDTA, in an effort to bring that model to 
Indian Country. There is currently a pilot project in four 
separate locations. We are using $500,000 from HIDTA 
discretionary funds and we are encouraging all of the HIDTAs to 
explore the possibility of engaging Indian Country partners 
that are within their respective HIDTAs, similar to what U.S. 
Attorney Mead has done.
    Finally, whether through the Meth Task Force meeting on 
June 10 at the National Congress of American Indians' mid-year 
conference in Alaska, that I will attend, and I am working 
closely with Jackie Johnson and Heather Dawn Thompson, or by 
speaking at the Hopi Youth Conference on June 20 and meeting 
with tribal leaders the day before and after, Tohono O'odhams, 
San Carlos, White Mountain and others, or by including Indian 
Country participants in our National Methamphetamine 
Conferences that took place in Alabama and in Utah and in Iowa, 
and then by having a separate full day on methamphetamine in 
Indian Country hosted by Ms. Schofield in Phoenix on August 1.
    We will continue to engage. We will continue to press 
forward and we will continue to work together to improve the 
lives of all those that live in Indian Country.
    Again, I thank you, Mr. Chairman, for calling this hearing. 
I appreciate the opportunity to testify, and look forward to 
answering questions.
    [The prepared statement of Mr. Burns follows:]

 Prepared Statement of Scott Burns, Deputy Director for State, Local, 
       and Tribal Affairs, Office of National Drug Control Policy
Introduction
    Chairman Dorgan, Vice-Chairman Thomas, and Members of the 
Committee: Thank you for the opportunity to testify today on law 
enforcement in Indian Country. I am Scott Burns the Deputy Director for 
State, Local, and Tribal Affairs for the Office of National Drug 
Control Policy (ONDCP); in addition, I serve as the Chair of the Law 
Enforcement Task Force (LETF) for the Administration's Indian Affairs 
Executive Working Group (IAEWG). I will speak specifically about the 
unique challenges regarding drug abuse and drug trafficking in Indian 
Country and what the Federal Government is doing in conjunction with 
tribal governments to combat these problems.
    The Office of National Drug Control Policy Reauthorization Act of 
2006 directs ONDCP to include Tribal Affairs in both the title and 
mission of ONDCP's Office for State and Local Affairs--now State, Local 
and Tribal Affairs. As a result, ONDCP has redoubled its already strong 
commitment to reducing drug abuse in Indian Country.
    ONDCP believes that a three pronged strategy of: (1) Stopping Drug 
Use Before it Starts; (2) Intervening and Healing Drug Users; and (3) 
Disrupting the Market, is critical to combat drug abuse. ONDCP is 
engaged with Native American populations in initiatives that focus on 
all of these areas. Although my testimony will focus on enforcement, or 
Disrupting the Market, I would like to briefly highlight ONDCP's 
prevention and treatment efforts as part of our comprehensive strategy.
Stopping Drug Use Before it Starts
National Youth Anti-Drug Media Campaign
    The ONDCP's National Youth Anti-Drug Media Campaign (Media 
Campaign) is partnering with the U.S. Department of Interior, U.S. 
Department of Health and Human Services, the Partnership for a Drug-
Free America, and the National Congress of American Indians to develop 
a new public awareness campaign aimed at targeting methamphetamine use 
among Native Americans. Combined, the partners have contributed 
$300,000 in support of this groundbreaking effort for Indian Country. 
ONDCP is providing half of the funding with a commitment of $150,000.
    Before this partnership, there was no national anti-meth media 
campaign tailored to Indian Country. The initial phase of the campaign 
will include an Indian Country specific radio and print ad campaign. 
This meth initiative will build on the innovative work that the Media 
Campaign has spearheaded in the past.
    Prior to Congressional funding cuts in the Media Campaign's budget, 
the Media Campaign was able to devote more resources to reach Native 
Americans. The parent-targeted advertising component of the Media 
Campaign, which includes multicultural parent advertising, was 
suspended at the beginning of mid-May 2006. For FY08, the President's 
increased budget request for the campaign would enable the Media 
Campaign to reinstate multicultural parent efforts.

  <bullet> Since the Campaign's inception, over $7 million has been 
        invested in reaching American Indian and Alaska Native 
        audiences through research and the development and placement of 
        print and broadcast advertising. The advertising reflected a 
        commitment to reaching American Indian and Native Alaskan 
        parents, elders and youth with drug prevention messages that 
        are culturally relevant and appropriate.

  <bullet> Prior to the Media Campaign, there was very little research 
        on American Indian audience attitudes that could be used to 
        create culturally relevant drug prevention messages. For over 2 
        years, the Campaign conducted research to identify the 
        attitudes and beliefs that Native American teens, parents and 
        influential adults have toward drug use in their community.

  <bullet> Over 400 teens, parents and elders from more than 32 tribes 
        participated in the discussions. The research provided vital 
        insights for the Campaign. The findings provide input on ad 
        development that focus on the positive influence of elders in 
        youth's lives, the important role parents can play in drug 
        prevention, and the importance of Indian pride in keeping kids 
        drug-free.

Drug Free Communities Support Program
    ONDCP's Drug Free Communities Support Program (DFC) was originally 
funded by Congress in 1997 with the understanding that local problems 
need local solutions. The DFC program now supports over 700 drug-free 
community coalitions across the United States. As a cornerstone of 
ONDCP's National Drug Control Strategy, DFC provides the funding 
necessary for communities to identify and respond to local substance 
use problems. There are currently 18 grantees serving Native American 
populations across the country.
    ONDCP is working to increase the number of grantees that serve this 
population. ONDCP recently developed and implemented a Native American 
application workshop for DFC that was held in Las Vegas, Nevada, on 
February 27 and 28, 2007. More than 90 individuals representing Native 
American communities attended this conference. We also held a DFC 
information session and coalition workshop in Phoenix, Arizona, on May 
2, 2007 that was attended by nearly 50 individuals, many representing 
Native American groups. We will also be holding a Native American 
coalition-building and DFC overview workshop in Tucson, Arizona, during 
the last week in July.

Intervening and Healing Drug Users
    Access to Recovery and Screening, Brief Intervention, Referral and 
Treatment both include initiatives with a focus on Native Americans. 
These programs are key components of the National Drug Control Strategy 
and ONDCP priorities.

Screening, Brief Intervention, Referral and Treatment
    A key component of expanding the Nation's treatment capacity lies 
in early detection and engaging health professionals in the 
identification, counseling, referral, and ongoing medical management of 
persons with substance use disorders. The Department of Health and 
Human Services offers grants through the Screening, Brief Intervention, 
Referral and Treatment (SBIRT) program to States, territories, and 
tribal organizations to provide effective early identification and 
intervention in general medical settings. Currently, the Cook Inlet 
Tribal Council is participating. This program is based on research 
showing that by simply asking questions regarding unhealthy behaviors 
and conducting brief interventions, patients are more likely to avoid 
the behavior in the future and seek help if they believe they have 
problem. The programs are based in clinical settings, a location that 
has a high propensity to attract higher-risk populations, who through 
violence, accidents or health-related problems, are seen by medical 
professionals.
    To date, Federally-funded SBIRT programs have been established in 
17 states and one tribal organization. In addition to the 10 state 
grants awarded in 2003 and 2006, 12 universities and colleges have 
received funding to develop a screening and intervention model to be 
used on campuses. The Office of National Drug Control Policy works 
closely with the Substance Abuse and Mental Health Administration to 
monitor the success of these programs and to highlight the benefits of 
early screening and intervention. As part of the FY08 budget, $41.2 
million is requested for this important initiative.

Access to Recovery
    For those referred to treatment because they have become addicted, 
the Administration is working to expand options for treatment. The 
Access to Recovery Program (ATR) program at HHS is a key source of 
innovation in the field of addiction recovery. The program provides 
clients with a voucher for treatment as well as recovery support 
services. The program expands treatment options to include faith and 
community-based providers so that clients can choose their own path to 
recovery. This is especially useful in the Native American community 
and is being used by the California Rural Indian Health Board.
    Many people who experience addiction face barriers to treatment, 
from finding child care while they are in a recovery program to 
accessing transportation services to take part in job training. ATR 
provides recovery support services such as child care, transportation 
vouchers, and mentoring services.
    The program is now in 14 States and one tribal organization and, as 
of December 2006, has served over 137,500 individuals who sought 
treatment and recovery support services in the grantee States. This 
number far exceeds the programs target of 125,000 clients expected to 
be served over 3 years. The program requires that States provide 
outcome data so patient progress can be measured and best practices 
learned for future generations. The President's FY08 request for ATR is 
$98 million.

Disrupting the Market
    Regarding the focus of this hearing, I am pleased to share the 
extensive law enforcement efforts that ONDCP and the Administration are 
undertaking in Indian Country. The common theme of all these law 
enforcement initiatives is collaboration among tribal, state, local, 
and Federal partners crucial to bridging historical, cultural, and 
jurisdictional barriers.

HIDTA
    The Office of National Drug Control Policy Reauthorization Act of 
2006, Public Law No. 109-469 requires ONDCP to prepare a report for 
Congress on the representation of tribal governments in the High 
Intensity Drug Trafficking Areas Program (HIDTA). While ONDCP is still 
in the process of compiling information and drafting this report, I can 
offer a brief overview of tribal involvement in HIDTA. Several HIDTAs 
such as the Oregon HIDTA, Northwest HIDTA, Nevada HIDTA, New Mexico 
Region of the Southwest Border HIDTA, Arizona Region of the Southwest 
Border HIDTA, and Rocky Mountain HIDTA have some level of participation 
from tribal law enforcement, ranging from task force membership to 
occasional collaboration. HIDTA is trying to increase tribal 
participation; however, the obstacles from the perspective of the 
tribal entities include lack of manpower, insufficient funding, and 
sovereignty issues.

Indian Affairs Executive Working Group/HIDTA
    Prior to our reauthorization ONDCP had already begun to foster 
cooperative law enforcement initiatives in Indian Country. With the 
creation of the Indian Affairs Executive Working Group (IAEWG) in 2005, 
the Administration has brought together all Federal agencies that fund 
programs and initiatives involving Native Americans. This creates a 
mechanism for the Federal Government to work together on these complex 
issues, creating consistency and building trust with tribal entities. 
IAEWG is comprised of five issue-specific task forces. I Chair the Law 
Enforcement Task Force which includes members from the Department of 
Justice, Bureau of Indian Affairs, Drug Enforcement Administration, 
Indian Health Services, Department of Homeland Security, Environmental 
Protection Agency, Federal Bureau of Investigation, and Substance Abuse 
and Mental Health Services Administration. On Friday, May 18, 2007, 
members of the Law Enforcement Task Force will be meeting with the 
National Drug Intelligence Center to begin writing a new drug threat 
assessment for Indian Country.
    One of the Law Enforcement Task Force's main accomplishments is 
their collaboration and facilitation in the use of $500,000 of HIDTA 
discretionary funds for initiatives in Indian Country. The purpose of 
the Native American Project is to use intelligence-driven operations to 
detect, deter, interdict, disrupt and/or dismantle organizations 
involved in drug trafficking, in general, or methamphetamine 
trafficking, specifically, on tribal lands. Four HIDTAs were chosen to 
receive FY 2006 funds. The Rocky Mountain HIDTA, the Northwest HIDTA, 
the Arizona Region of the Southwest Border HIDTA, and the New Mexico 
Region of the Southwest Border HIDTA. Because of their ongoing nature, 
we are unable to specify the exact locations of these efforts; doing so 
could jeopardize the success of the current investigations.
    This spring I met with all the participating tribal governments to 
explain the program, listen to their concerns, and ask for their 
cooperation. They are all willing and eager to work with us and I look 
forward to continued collaboration. Through these meetings I observed 
extreme disparities between the sophistication of the law enforcement 
agencies and financial security of the different tribal entities. These 
differences illustrate the importance of flexible programs that can be 
tailored to the needs of the individual tribes.
    ONDCP is working with the Law Enforcement Task Force to increase 
coordination and build on the pilot program. Although we are only in 
the initial phases of the program, there have already been some 
successes. For example, utilizing funding from the Arizona HIDTA 
Region: Native American Project--FY 2006 Supplemental Funding, wire 
taps (Title III's) are being used to support the effort to address meth 
on the reservation. Agents from the DEA Mobile Enforcement Team (MET), 
working in conjunction with tribal PD, ATF, FBI, ICE, BIA, and the 
Arizona Department of Public Safety have identified numerous separate 
organizations which are distributing and selling on the Indian 
Community associated with the most recent meth operations. This 
operation is ongoing therefore the name of the Indian Community and 
specifics to the case cannot be included.
    In just one of the four HIDTAs, nine separate drug trafficking 
organizations have been identified, and officers have made 21 
controlled multi-ounce methamphetamine purchases. 4.32 kilograms of 
methamphetamine, 2 kilograms of cocaine, three guns, and $64,546 have 
been seized.

Upcoming Events
    On Sunday June 10, 2007 ONDCP will attend the Meth Task Force 
Meeting at the National Congress of American Indians (NCAI) Mid-year 
Conference. We will give a brief overview of ONDCP's efforts, but more 
importantly have the opportunity to hear from tribal leaders about the 
effect that methamphetamine is having in their community. Then, on 
Monday June 11, 2007, I will address Plenary Tribal Session regarding 
what ONDCP is doing to address methamphetamine and other drugs in 
Indian Country.
    I will speak at the first annual Hopi Youth Conference which will 
take place on June 20, 2007, in the Village of Hotevilla, AZ, on the 
Hopi Indian Reservation. This youth conference is expected to be 
attended by over 200 students from ages 12-25 reservation wide and 
include nearby Navajo communities. Subjects presented will include 
substance abuse (including methamphetamine), and other health issues 
concerning our youth.
    During this trip, we will have the opportunity to meet with the 
Navajo Nation Drug Enforcement Units and surrounding tribal police 
agencies participating in a tribal law enforcement empowerment pilot 
project. These participating tribal agencies include, the Hopi Tribe, 
White Mountain Apache Tribe, San Carlos, Apache Tribe and the Tohono O 
odham Tribe. These agencies are in the planning stages of establishing 
an all Indian country drug task called the ``Lucky Seven Task Force.'' 
This meeting will take place on either June 19, or June 21, 2007, at 
the Navajo Law Enforcement Training Center in Toyei, AZ.
    Finally, in partnership with the National Alliance for Model State 
Drug Laws (NAMSDL,), Office of Justice Programs/Bureau of Justice 
Assistance (OJP/BJA), and the Substance Abuse and Mental Health 
Services Administration (SAMHSA), ONDCP is in the process of conducting 
four regional planning events to assist states, counties, local 
governments, and tribal entities with their legislative and policy 
efforts to address methamphetamine and its related issues. In addition 
a fifth summit will take place in Phoenix, AZ on August 1, 2007, with a 
focus on methamphetamine in Indian Country.

Conclusion
    Although there are considerable obstacles to overcome, the problems 
of drug abuse and drug trafficking in Indian Country can be reduced. In 
collaboration with tribal governments, ONDCP and the Administration are 
committed to continuing prevention, treatment, and law enforcement 
initiatives in Indian Country. I appreciate the opportunity to testify 
today, I would be happy to answer questions from Members of the 
Committee. Thank you.

    The Chairman. Mr. Burns, thank you, and thanks for your 
continuing work as well.
    We have been joined by Senator McCaskill and Senator 
Murkowski.
    Senator McCaskill, did you want to make any opening 
comments before we ask questions?

              STATEMENT OF HON. CLAIRE McCASKILL, 
                   U.S. SENATOR FROM MISSOURI

    Senator McCaskill. Well, I have a sense of urgency about 
trying to make this better. Like you, Mr. Mead, I have spent a 
lot of my adult life as a prosecutor, and spent a whole lot of 
time fighting methamphetamine. At the point in time that I was 
the elected prosecutor in Kansas City, we were second per 
capita in the number of meth labs in the Country, and embarked 
upon a very aggressive strategy that involved a whole lot more 
than just the task forces and busting labs. Hopefully, we will 
have a chance to explore that a little bit in the questioning.
    I will tell you that I start out with a bias, so you can 
prepare yourself for my questions later. I start out with a 
bias that the Federal Government is generally not as good as it 
should be in terms of working with local law enforcement, and 
that is borne out of experience, not because I came to that 
conclusion by reading something.
    So I will be anxious to explore how integrated tribal law 
enforcement and State law enforcement is with the Federal 
authorities, DEA and FBI, because particularly I think in this 
instance it is that cross-designation and cooperation, 
particularly when it comes to methamphetamine, that is going to 
make a big difference.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Murkowski?

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. I truly 
appreciate you calling this hearing. I think it is on an issue 
that we would all agree is extremely important. It is 
particularly timely in view of the fact that this week is 
National Police Week, the week that we recognize law 
enforcement and their families, all those that give so much to 
us.
    I have had an opportunity in the past to be involved with 
the recognition and the tribute that we show those who have 
given their lives in the line of duty, 17,917 names that are 
inscribed on the memorial here in Judiciary Square. We have the 
name of an Alaskan officer inscribed on that memorial, a 
gentleman by the name of Ronald Zimmin. He was an Aleut from 
the village of South Naknek out in the Bristol Bay region. 
Officer Zimmin, this was back in 1986, was ambushed by a man 
with a rifle when he was responding to a domestic violence 
call. Officer Zimmin was the only law enforcement out there. He 
had no backup. And unfortunately this was a situation in 1986, 
and now fast-forward to 2007 and in far too many of our 
villages still we have no backup.
    So as we discuss the importance of how we provide for law 
enforcement in Indian Country, for law enforcement for those in 
our Alaska Native villages in these very remote places, I think 
whether it is police officers week or any week of the year, we 
need to appreciate that have so much more to do, so much 
further to go in order to really provide for a level of law 
enforcement that is sufficient.
    I do look forward to hearing a little bit more in terms of 
how we can deal with the problems that Senator McCaskill has 
raised in terms of methamphetamines and some of the other drugs 
that are truly killing far too many across our Country.
    I appreciate your calling the hearing, Mr. Chairman.
    The Chairman. Thank you very much, Senator Murkowski.
    We have votes starting in a half hour. I am going to 
restrict my questioning, but I want to make sure that we have 
ample time. Let me just ask a couple of opening questions.
    Mr. Mead, you described the situation in Indian country as 
a ``tragedy'' in your testimony. My understanding is, from 
information from the BIA that the BIA law enforcement is 
staffed at 31 percent of need, and for corrections, 39 percent 
of need. If in fact we have a tragedy on our hands, and I 
certainly agree with that, I mentioned the Amnesty 
International report that came out just recently. If we in fact 
have a tragedy on our hands, how is it that we are not more 
urgent in trying to figure out how we get from 39 percent of 
need or 31 percent of need up to 80 percent or 100 percent of 
need? Is there an urgency here?
    Mr. Ragsdale, let me ask you first, and then I am going to 
come to Mr. Mead.
    Mr. Ragsdale. Yes, sir.
    The Chairman. Are we 31 percent and 39 percent? Are those 
numbers accurate?
    Mr. Ragsdale. Yes, sir.
    The Chairman. So we are 70 percent short or 60 percent 
short of the resources necessary?
    Mr. Ragsdale. That would be true in some communities, yes, 
sir.
    The Chairman. But that is the national number that I have, 
I believe. So if we are 70 percent or 60 percent short of the 
resources for proper law enforcement and corrections work, how 
do you propose we solve that?
    Mr. Ragsdale. Well, as I indicated in my testimony, the 
Secretary's initiative to increase the law enforcement budget 
by approximately $16 million is a good start.
    The Chairman. And that will take us to what, from 30 
percent or 31 percent and 39 percent of meeting the need, it 
will take us to what percent? Do we know?
    Mr. Ragsdale. I have not done the math, but we could 
provide that information to the Committee.
    The Chairman. Is it likely it will still leave us short?
    Mr. Ragsdale. It is likely that we would still be about 
half short.
    The Chairman. That is pretty urgent, isn't it? So I don't 
understand how we get to this point where we say, and I am not 
suggesting money is the only issue here, but if we are 60 
percent short of meeting the need in corrections and 70 percent 
short of meeting the need with respect to law enforcement, it 
results in the kind of description that Senator Murkowski just 
made, with one person out there patrolling a wide range with no 
help, putting their lives at risk.
    It just seems to me like we come and we talk about these 
things, and we are so far short even in our recommendations of 
beginning to make a dent in it. That is my point. I am not 
suggesting that the increase in recommended funding is 
irrelevant. It is not, but it really isn't very relevant 
relative to what we should do.
    Mr. Mead, what is your assessment of that?
    Mr. Mead. Senator Dorgan, I will do my best to answer that. 
I will tell you up front it is probably not going to be to your 
satisfaction, because of course in my role I am very limited in 
asking for additional resources. But because we have at least 
one former prosecutor on the panel, I will tell you that if you 
ask a prosecutor if there is a need for more law enforcement 
officers, the answer is never going to be no.
    I think on the Wind River Indian Reservation, as Senator 
Thomas said, we have seven officers. I am sorry I can't 
remember off the top of my head what the square miles are, but 
it is huge. I think in the calculation of law enforcement, and 
this is a rural bias, but you can't just do it by population, 
but you should also look at the geographic size. Wyoming is a 
big State, not compared to Alaska, but when people have to 
travel 30, 40, 50 miles to make a call, that should be involved 
in the equation on resources.
    I will also tell you, Senator, and this is not directly 
answering your question, but it is I think important, is that 
U.S. Attorneys' offices, my office, recognize the pressure on 
law enforcement. That is why, as I suggested here, it is very 
important to use DEA, FBI, BIA, local and State officers to 
leverage everything you have out there.
    The other reason I think that is important is not just from 
a resource point, but I think when you are talking about drug 
dealers, they don't stub their toe and stop on jurisdictional 
boundaries. They have the advantage of just free flowing 
wherever they go to spread their poison.
    So I think that we need to recognize that. We need to have 
those relationships where we can chase them in the same way 
that they can move freely. So that is another advantage of 
cooperative law enforcement, Senator.
    The Chairman. Doesn't the understaffing, dramatic 
understaffing, also pose additional danger and risk to the law 
enforcement officers who are there?
    Mr. Mead. There is no question about it, Senator. Whenever 
you are on a call, even if it is a drunk domestic violence 
situation or it is a homicide, if you go out by yourself, that 
is always a concern. The men and women who are out there go out 
very bravely to do this job. They don't face what is available 
probably in urban areas, where you can always have a partner.
    The Chairman. In many cases, they have no backup.
    Mr. Mead. Yes, sir.
    The Chairman. Let me ask one final question, and then I 
will submit a number of questions. At the Indian Police Academy 
in Artesia, is there a waiting list to get into Artesia?
    Mr. Ragsdale. I am advised, not currently. I know that has 
been an issue in the past. When I was a police chief, we 
sometimes had to wait some time before we could get members 
into the Academy.
    The Chairman. In terms of training additional law 
enforcement personnel, have you considered using the State law 
enforcement training capabilities in various States, 
contracting with them, for example?
    Mr. Ragsdale. We do use State police academies to 
supplement our training and also provide primary training in 
certain instances.
    The Chairman. Well, I will submit a series of questions. My 
thought is that if there is a capacity problem in training, we 
need to open opportunities for much greater connections to the 
State and local government training facilities. I think there 
is a shortage of being able to do that. I don't think we are 
quite connected so that we can get the certifications there, 
but I will engage with you further on that.
    Senator Thomas?
    Senator Thomas. Thank you, Mr. Chairman.
    Matthew, the reservation is 2.3 million acres, with seven 
officers, but 2.3 million acres.
    You have all done a great job of talking about what you are 
doing and so on. I think there is a real challenge, and all of 
us understand that there are some problems here that need to be 
changed. I am going to ask you each to respond with one or two 
suggestions. What should be changed? What should be done that 
we are not doing?
    Very quickly, would you each respond to that? What would 
you do differently?
    Mr. Ragsdale. Well, I believe we are trying to address the 
shortages that we have, and providing better training and 
affording opportunities so that we can do more cooperative law 
enforcement training. But there is no doubt, Senator, that we 
expect and our police officers, tribal and BIA both, go out and 
take calls where nobody else would, without adequate backing.
    Senator Thomas. What are we going to do about it?
    Mr. Ragsdale. Well, as I said before, the Secretary's 
initiative is a good first start.
    Senator Thomas. OK.
    Ms. Schofield, what would you do or change to make this 
problem go away?
    Ms. Schofield. What we are trying to do is work across the 
Federal Government so that we all have a partnership. I echo 
what Mr. Ragsdale said earlier, that we have never had this 
level of partnership. I left out some of the work that we are 
doing with ONDCP. I think everybody realizes that the 
challenges are crushing, and so how do we work together.
    So that is what we are doing with our training and 
technical assistance. Later this year, we will have a grants 
policy that was developed in consultation with the tribes so 
that we are working with them to show them that you don't just 
have to go to one small--
    Senator Thomas. What should be done, then?
    Ms. Schofield. Break down the barriers on the grants so 
that tribes have access to all of them. That requires training, 
because as you know, the Federal grant system is daunting.
    Senator Thomas. It doesn't seem like training ought to be 
much of a problem. There are so many training things going on, 
we can just utilize what we have now.
    Ms. Schofield. They do need training.
    Senator Thomas. Well, of course they need training.
    Ms. Schofield. Not just tribes, but rural as well. I mean, 
some of the grant process are very complicated. As you know, 
the person that hires the best grant writer sometimes gets the 
grant that they don't need.
    Senator Thomas. Why can't they be trained in some of the 
same facilities that regular police officers are trained in?
    Ms. Schofield. As far as what Mr. Ragsdale said, we do that 
at the Department of Justice. I know we do that through our 
Bureau of Justice Assistance. The meth training program that we 
have developed, we make sure we take advantage of existing 
structures. We don't try to start over from scratch.
    Senator Thomas. So you think training is the biggest 
problem?
    Ms. Schofield. No, I don't. I think for me, I am just 
addressing my program.
    Senator Thomas. OK.
    Matt?
    Mr. Mead. Senator, I think two things, not necessarily 
changes, but more focus on. One is that Amnesty International 
report, which I appreciate because it draws attention to this. 
I don't necessarily agree with everything in there, but 
anything that draws attention to violence against women, 
specifically in crimes on reservations, generally is a good 
thing in my mind.
    One of the things they mention in there, and one of the 
things that is already in the process is to study to short of 
get a better baseline of what is going on in Indian Country. I 
think right now there are two studies that started last year 
that are set for a 2-year completion that are going to get a 
better handle on crime in Indian Country generally, and crimes 
against women specifically. So that is one thing. I think that 
is good.
    The second thing is, Senator Thomas, to continue to work 
with the cooperative agreements. It is a relatively new and 
novel thing in Indian Country to have DEA involved in the way 
that they are now. I think that is a very good step and I would 
continue to step for that and other cooperative agreements.
    Senator Thomas. Very good.
    Mr. Burns?
    Mr. Burns. As a State and local prosecutor, Senator 
McCaskill, for 16 years, I appreciate your comments. Having 
served those 16 years in the wide expanse of the Southwest 
United States, Senator Murkowski, I appreciate your comments.
    I don't know how to go about this other than one step at a 
time. In the 5-years that I have been here in trying to address 
this issue, I have come to determine it is hard work. It is 
hard to just say here are these programs, or to say here is 
some funding and here are some grants.
    Senator Thomas. I know it is hard work. We have these 
programs.
    Mr. Burns. So what we have done, we should--
    Senator Thomas. What should we do to change it?
    Mr. Burns. We should add onto what are doing, and that is 
we have picked four pilot projects. We went out and met with 
the tribal councils and the tribal chairmen. We sat with them. 
We didn't tell them, but we asked them if they would be willing 
to participate in this, and they said yes.
    And then we said we would bring prevention in education. We 
will bring treatment, but we are also going to bring law 
enforcement. By law enforcement, I mean Federal, State and 
local, that jurisdiction has to be waived with respect to the 
DEA and the FBI and State and local sheriffs and police 
officers, working in the HIDTA model and it might be Title III 
wires, but we are going to go after those that are coming on to 
reservations, as Matt Mead has done.
    But we need to do it across the 562 areas in this Country. 
But we can't just do that. Then we have to come in with 
treatment capacity and we have to be able to sustain it. So we 
need to do it, Senator Thomas, one area at a time.
    Senator Thomas. OK. Thank you.
    The Chairman. Senator McCaskill?
    Senator McCaskill. I assume that, Mr. Chaney, and I 
apologize I can't see you, but you may be the best person to 
give me the answer to this question. How many drug courts are 
currently operating in Indian territory across the United 
States?
    Mr. Chaney. Thank you for that question, Senator. We can 
get you that information. I don't have it handy, but there are 
a handful of tribal drug courts that are operating. I believe 
the number is quite small, though. We can get you the exact 
statistics.
    Ms. Schofield. It is 18.
    Senator McCaskill. Eighteen drug courts? Do you know if 
they are operating with Federal funds or if they are operating 
from State or tribal funds?
    Ms. Schofield. Some are operating with Federal funds, but 
in the State of Alaska, they have done so well with some of 
their programs that they are using State and tribal dollars to 
actually continue to do that work.
    Senator McCaskill. The President has zeroed out drug courts 
in this year's budget, as you all may or may not be aware. It 
is incredible to me that anyone would think about zeroing out 
dollars for drug courts. Every problem you have talked about is 
addressed by drug courts. It mandates interagency cooperation. 
It takes pressure off corrections budgets. It gets people off, 
and we have great treatment protocols for methamphetamine now. 
It is much more cost effective than any other kind of 
incarceration, and the incredible track record.
    No one can argue with the statistics of drug courts across 
this Country, what they have done in terms of recidivism. It is 
such a wise investment. It is just mind-boggling to me that we 
would think in law enforcement in this Country right now that 
we would turn our back on drug courts, and particularly when 
you look at a tribal community. It is a perfect model to 
operate drug courts because you have the community pressure and 
the community closeness that would augment the success of drug 
courts.
    Mr. Chaney, maybe you know this, or maybe someone else 
knows this, how many cross-designations do we have operating 
now total, as it relates to prosecutors or tribal officers? How 
many of those are operating right now with cross-designation on 
Federal task forces or prosecutors in Indian Country?
    Mr. Chaney. That is an excellent question. As was discussed 
earlier, because of the situation with staffing in Indian 
Country law enforcement, cross-commissioning has become key. In 
fact, it is one of our major ways in which we are able to 
address some of the crime in Indian Country. The answer is 
probably hundreds of agreements, because what you are talking 
about is 191 tribal or BIA police departments out there, 
hundreds of counties are involved, State agencies, and there on 
any one reservation there might be several cross- commissioning 
agreements with different agencies.
    A good example of a proactive effort for cross-
commissioning is in Oklahoma where there are over 35 federally 
recognized tribes, and I think over 50 counties that have 
Indian Country. There were so many cross-commissioning 
agreements that the State of Oklahoma and the Federal 
Government, mainly our office, got together and have executed a 
master cross- commissioning agreement that the tribes and 
cities and counties can sign onto and receive each other's 
authority to enforce the law and close some of those gaps.
    Senator McCaskill. That is great. You talked about grant 
training. It seems to me it would be pretty obvious that it 
would be a really wise investment for us to provide someone to 
write grants for the tribes, because the grant writer is 
essential. How many Byrne grants are being granted to tribal 
authorities? And how many grants out of VAWA, Violence Against 
Women Act, are currently being given to any of the tribal 
entities? Does anybody know on the panel? I know you have 
addressed HIDTA, which is another good one. But what about 
Byrne and what about Violence Against Women?
    Ms. Schofield. I think there are 1,600 Byrne grants. I can 
get you that information.
    Senator McCaskill. In tribes?
    Ms. Schofield. Yes. No, no, throughout the entire Country. 
I would have to--
    Senator McCaskill. I was going to say, 1,600 in tribes, I 
would be shocked if we had that.
    Ms. Schofield. I would have to back that out and get you 
that number. We have had extensive conversations with NCAI 
about grants. They are very aware of the deficiencies. I had a 
conversation probably about a month ago with the Executive 
Director of NCAI about how to provide resources at the Federal 
level for them, so that tribes could know how to hire good 
grant writers. I don't know that you could hire one person for 
all 562 tribes, but I am working--
    Senator McCaskill. You could hire one person to train the 
trainers.
    Ms. Schofield. Well, that is what we are doing with our 
training and technical assistance sessions.
    Senator McCaskill. Finally, once again I want to make sure 
that I stress this. The Byrne grants are another area where you 
get most of the funding for inter-jurisdictional task forces, 
that you can't do meth without. I know Mr. Mead would back me 
up on this, it is very difficult to effectively go after 
methamphetamine without an inter-jurisdictional task force 
because the labs move. It is a moving target. Byrne grants have 
been the mother lode for methamphetamine task forces across 
this Country, especially areas that don't have a meth HIDTA, 
which frankly were handed out I think sometimes on a political 
basis, rather than where the need was for methamphetamine task 
forces.
    Once again, this is an area where I hope your office, Mr. 
Burns, is pressing the Administration on Byrne grants, because 
once again this is an area where they keep cutting back. It is 
hard for me to understand why we would be cutting back funding 
in an area where it is really effective and really working.
    So I would certainly appreciate any written input to the 
Committee about the position of your office, Ms. Schofield, and 
ONDCP about Byrne grants and that issue as it relates to Indian 
tribes.
    Thank you, Mr. Chairman.
    The Chairman. Senator McCaskill, thank you. And let me 
reemphasize, I think the drug courts are unbelievably 
productive and important, and I am very disappointed by that 
budget recommendation there. We will ask some additional 
questions in writing.
    Senator Murkowski?
    Senator Murkowski. Thank you, Mr. Chairman.
    I want to ask a couple of questions about the Amnesty 
International report on sexual violence in Indian Country. Ms. 
Schofield, I know that you don't necessarily have supervisory 
responsibility of the work of the Office of Violence Against 
Women, but has your department read the report? What are the 
initial views on it? Does the department plan on implementing 
any of the recommendations? What is coming out from your 
department as a consequence of this report?
    And Mr. Mead, I will ask you a similar question in terms of 
what is the go-ahead now that we have this report out there?
    Mr. Mead. Senator, first of all, I don't know that anything 
has been done just directly in response to that report, but 
prior to that report, I talked earlier about two studies that I 
think were going to be helpful. One is the Violence Against 
Women in the Department of Justice Reauthorization Act of 2005. 
It has a chapter devoted solely to safety for Indian women. 
Congress has already recognized the need for more statistical 
information on Native Country.
    And so the two studies I talked about earlier, first is the 
National Institute of Justice, in consultation with the Office 
of Violence Against Women, is charged with conducting a 
national baseline study to examine violence against Indian 
women. The study includes crimes of domestic violence, dating 
violence, sexual assault, stalking and murder. It will also 
evaluate the effectiveness of Federal, State, tribal and local 
responses to these crimes. This is a 2-year report, Senator.
    Senator Murkowski. When will that report be available, 
then? You say it is a 2-year report, but when is it scheduled 
to be delivered to the Congress?
    Mr. Mead. Senator, I think it is calendar year 2008. The 
second report I think is on the same time line. The Secretary 
of Health and Human Services is conducting a study to obtain a 
national projection of the incidence of injuries and homicides 
resulting from domestic violence, dating violence, sexual 
assault or stalking committed against American Indian and 
Alaska Native women. This is also a 2-year study, Senator.
    Senator Murkowski. Well, let me ask then, in light of the 
fact that it is a 2-year study that we are going ahead with, we 
know that the situation out in Indian Country is bad. We know 
that in the State of Alaska, that we are seeing native women as 
victims of sexual assault at rates that are absolutely 
disproportionate in a way that should be shocking to people.
    One of the things that we learn from the Amnesty report was 
failure to adequately train staff to collect the forensic data. 
Comments that were included in the report such as not even 
having the rape kits available at IHS facilities, untrained 
staff, lack of clear protocols for treating sexual assault 
victims. So it is one thing to go ahead with a study over the 
next 2 years, but I would certainly like to think that between 
now and the time that the study comes out, we would be at a 
minimum acting to make sure that we are beefing up that 
training, that we are making sure that we have rape kits 
available at IHS facilities.
    Is that aspect of the report being acted upon? Ms. 
Schofield?
    Ms. Schofield. That is not the aspect of the study. One of 
the things that came out when I read the Amnesty International 
report was I actually talked to someone at IHS, and I am going 
to have a followup meeting with that person that is directly 
responding to that, because at the NIJ we believe that we can 
provide IHS with rape kits.
    The other part of it was that there were not enough sexual 
assault nurses available in Indian Country. I started calling 
around and asking people that trained the same nurses what is 
the problem in Indian Country. The problem came up with the 
certification, that even though, if you could get a sexual 
assault nurse examiner in Indian Country, you may not get 
enough reports of people that actually come in and want to use 
the nurse so that they can maintain their certification, which 
means that they are not going to stay in Indian Country with 
the certification.
    So I made that phone call to someone with the Pennsylvania 
Coalition Against Rape, and I am continuing to have that 
discussion because that is something that I really do think 
that we should be able to tackle in the next few months. The 
use of the kits, you have to train police officers to use the 
kits. So I actually made phone calls to some forensic folks as 
well. I made a bunch of phone calls around that. I can't say 
that I have come up with the solution, but I have started 
having conversations with people for that.
    Senator Murkowski. It just seems that it is to basic. We 
have assumed that these protocols are in place. We have assumed 
that this level of training is there. We have assumed that 
certain basics like the kits are available, and apparently we 
should not have made these assumptions. I would like to think 
that we would be acting very quickly, very proactively on this.
    My time is up, but I want to ask you, Ms. Schofield, and I 
have some questions that I will submit for response later, but 
last time we had an opportunity to be in a hearing together--
this was at the budget hearing--I asked you about the 
department's level of support for the Alaska Rural Justice 
Commission.
    I indicated at that time that I was somewhat concerned. We 
had had some changes of individuals. U.S. Attorney Tim Burgess 
was appointed to the bench. There were some changeovers there. 
I was concerned that perhaps the focus on the Alaska Rural 
Justice Commission was not as intense as it should. Has the 
department become more engaged in the work of the commission 
since the last time we had a chance to talk? If not, I would 
like to know why not, and perhaps we can have a meeting if 
there are updates that we should be aware of. I would like to 
take the time with you or whomever in your office to pursue 
that.
    Ms. Schofield. OK. I did have a conversation with the chair 
of the Native American Issues Subcommittee and told them that 
you wanted to make sure that whoever the permanent U.S. 
Attorney for that area, for the whole District of Alaska, was 
actively involved as the outgoing U.S. Attorney. I will make 
sure I followup. Mr. Tulley was here, and so he can make sure 
that he has as many conversations with people in the 
department.
    Senator Murkowski. Let me ask you, because the choice of 
words was we basically need to make sure that we have the 
permanent U.S. Attorney. We have an ``acting'' in there now. 
Does that mean that things--
    Ms. Schofield. I would not know who the nominee would be, 
to be honest with you, because I don't really follow it that 
closely. I have enough problems to deal with, so I don't--
    Senator Murkowski. Well, you and I should followup with 
this.
    Ms. Schofield. OK.
    Senator Murkowski. I appreciate that.
    Mr. Chairman, I will be submitting some additional 
questions.
    The Chairman. Senator Murkowski, thank you.
    A vote has begun, and I regret that we are a little pressed 
for time.
    Senator Tester has joined us. Senator Tester, welcome.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman. I am sorry I am 
late. I was presiding, but I will make this very, very quick.
    I would assume that every one of you think that there is a 
problem as far as crime in Indian Country. Is that a fair 
statement?
    Mr. Ragsdale. Yes, sir.
    Senator Tester. OK. I would also hope that you have it 
broke down into region as to where the most problems are, 
whether it is in the Great Plains, Alaska, Michigan, Florida, 
wherever. I will just make that assumption that that has been 
done, because the additional resources will be used better if 
they are put in places where there is the most need.
    I will also make the assumption that you understand where 
the deficiencies are, whether it is in police or detention 
staff or in drug enforcement.
    The question I have, and I don't want you to answer because 
we have to go, but I want you to think about it. It revolves on 
what Senator Thomas talked about. You people are on the ground. 
You know far more about what is going on out there than I do, 
at least you should. The question about what is the biggest 
problem and what is the best solution should be something that 
everyone of you have at the tip of your tongues, and something 
that will work, so that we as policymakers can come forth with 
some things that work in Indian Country.
    We have had hearings here about health care, about housing, 
about unemployment. There are a lot of issues that revolve 
around crime, make no mistake about it, and most of it revolves 
around hope. We have got to do something in Indian Country to 
stop what is going on right now. It is a catastrophe in the 
State of Montana.
    I will tell you that it is not going to happen without help 
from our Native American friends on the ground there, too. But 
we have to develop the kind of policies not just necessarily 
throw money at them, though I do think resources, as has been 
pointed out, are critically important, but they have to be 
spent in the right way.
    So it is really up to us to pass the policy, but it is 
really up to you to give us the instruction on how that policy 
is best implemented.
    With that, thank you, Mr. Chairman.
    The Chairman. Senator Tester, thank you.
    We intend to hold one additional hearing next month and go 
from this proposition of where are we, to where we need to get, 
and what we need to do to get there. We need a lot less 
conversation and a lot more action. So this hearing is an 
important step, but much more needs to be done, and we will 
have another hearing in the month of June, later in June, on 
this same subject.
    I want to thank all the witnesses.
    Senator Thomas, thank you for being here.
    This hearing is adjourned.
    [Whereupon, at 10:40 a.m., the Committee was adjourned, to 
reconvene at the call of the Chair.]

                            A P P E N D I X

 Prepared Statement of Chadwick Smith, Principal Chief of the Cherokee 
                                 Nation

    Mr. Chairman, Mr. Vice Chairman, and Members of the Committee, I am 
pleased to provide a statement on behalf of the Cherokee Nation 
regarding Law Enforcement in Indian Country. Sharon Wright, Director, 
Cherokee Nation Marshal Service (CNMS) has provided information and 
support in the development of this statement. We thank you for 
accepting the Cherokee Nation's statements for the record on these 
important issues that impact the welfare of our citizens, our 
communities and other American Indians in Northeast Oklahoma.
    The Cherokee Nation has 268,902 citizens. Within the 14-county 
jurisdictional boundaries, there is a population of 268,761 with 
109,624 being Cherokee citizens. The CNMS is responsible for providing 
law enforcement services on approximately 105,922 acres of Indian 
Country checker-boarded throughout 7,000 square miles of northeast 
Oklahoma. The CNMS also supports local law enforcement agencies with 45 
cross-deputization agreements, providing a more seamless law 
enforcement service and public protection for our citizens residing off 
Indian Country.
    Our officers are trained through the Federal Indian Police Academy 
and the State Council of Law Enforcement Education and Training and are 
required to maintain 40 hours of continuing education each year. CNMS 
operates a department of 33 sworn officers and 12 security personnel to 
provide a full range of law enforcement services including public 
safety, protection of property, crime prevention, prevention education 
in schools, criminal investigations, community policing and narcotic 
investigations.
    The tribe's justice system includes the Attorney General's office 
and a two-tiered court system with a District Court and a Supreme 
Court. The funding sources used to promote justice and law enforcement 
is tribal, Department of Justice (DOJ), Department of Interior (Self-
governance) and Housing and Urban Development (IHP-NAHASDA).
    CNMS provides services to a population that is predominantly at or 
below the national poverty level and has geographic barriers with 
Indian lands ranging from remote rural settings to cities. The highways 
and interstates passing through our jurisdiction are being used to 
traffic drugs from Mexico. This, combined with low income levels, make 
our rural communities attractive targets for operations by the Mexican 
drug cartels.
    Substance abuse, specifically methamphetamine, has had a negative 
impact on our rural communities. Health care costs are affected by the 
related physical health problems, behavioral health issues, and the 
cost of prescriptions as well as treatment. Methamphetamine abuse 
within the Cherokee Nation's jurisdiction is a contributing factor in 
domestic, child and sexual abuse. The Cherokee Nation has taken 48 
infants into custody in the last 2 years because they tested positive 
for methamphetamines at birth.
    Law enforcement incidents related to substance abuse continue to 
increase, such as possession, possession with intent to distribute, 
domestic abuse and child neglect and abuse. Methamphetamine use is a 
problem across the United States and in our jurisdiction meth has 
impacted all aspects of our government and cannot be wholly addressed 
by our law enforcement and justice systems.
    In 2000, the Cherokee Nation District Court had a total of 126 
civil and criminal cases, including 14 drug/alcohol related cases and 
37 domestic violence cases. The cases have continually increased, with 
448 drug/alcohol cases and 164 domestic violence cases reported by 
2006. (Cases were Indian Country, Indian housing or Indian community).
    The new laws which restricted availability of ephedrine and pseudo-
ephedrine have effectively reduced clandestine labs and the associated 
environmental and physical dangers. However, the demand for the drug, 
which is now being filled by Mexican drug cartels, has continued to 
drain tribal resources. The Cherokee Nation has partnered with other 
agencies in order to address the drug issue. One example is a narcotics 
investigation which started as a CNMS investigation involving a 
clandestine lab. The investigation eventually led CNMS to talk with the 
United States Attorney of the Eastern District. This began a 
coordinated effort with Cherokee Nation Marshals, DEA, Oklahoma Bureau 
of Narcotics and Dangerous Drugs (OBNDD), BIA and Creek Nation 
Lighthorse. The prosecution of the case resulted in the longest prison 
sentence handed down in the region, 60 years, for a methamphetamine lab 
operation spanning eastern Oklahoma, Kansas, Missouri and Texas.
    Cherokee Nation Marshals, Health Services and Human Services are 
collaborating on a prevention strategy to increase the detection of 
methamphetamine, decrease its use and improve prevention and treatment 
modalities in a target specific county. The goal is to build healthier 
families through early detection of potentially devastating habits or 
actions. Officers will make referrals to health and social services 
when reacting to domestic violence, child abuse, elder abuse, drug 
offenses and misdemeanor offenses by methamphetamine users. A former 
Federal grant for protective orders which assisted victims of domestic 
violence through the court process was an effective program. Though the 
grant has ended, we are continuing the efforts by having qualified 
staff to perform the assistance as an extra duty assignment. Substance 
abuse is still the number one contributing factor in family violence 
offenses and long-term methamphetamine use causes deviant behavior. Our 
approach is to work with the family as a unit, not just the individual. 
By using early stage intervention disciplines, we hope to stabilize the 
family and prevent future violence.
    We face many challenges while addressing the priorities of reducing 
domestic abuse, child abuse and methamphetamine distribution and use. 
Manpower shortage is one challenge. The number of law enforcement 
officers per 1,000 Cherokee residents is about 0.3, versus 2.6 for non-
tribal communities, according to the 2005 Uniform Crime Report. We 
provide 24-hour, 7 days per week coverage across 7,000 square miles. 
Our officers patrol alone and often respond to both high-risk and low-
risk situations with no backup. Officers are patrolling in geographical 
areas anywhere from 45 minutes to 2 hours away from one another, often 
in areas where our current communications system does not transmit. 
Local law enforcement with which we are cross-deputized sometimes do 
not assist due to their own lack of manpower. The officers are placed 
in greater danger because of the distance and the unreliability of 
communications.
    Like many tribal agencies, CNMS has antiquated or out-dated systems 
of communications, automated reporting, records repository and GPS/
directional capabilities. Currently we have a hard-copy system 
requiring manual research for data. The disposition of tribal cases, 
warrants for individuals, and issued protective orders are not on a 
national or state data system. Other jurisdictions looking at criminal 
histories do not get the full background of an individual if part of 
the crimes committed were on Indian Country. Tribal criminal 
information needs to be accessible to other law enforcement agencies 
and an affordable system available to tribes.
    As we expand and develop tribal businesses we are seeing an 
increase in misdemeanor crimes involving non-Indians. A remedy or 
process for misdemeanor violations has not been developed for tribes in 
the Northern District and the Eastern District. This allows non-Indians 
to continue committing misdemeanor offenses on Indian Country without 
fear of criminal penalty.
    There is an erroneous assumption that tribes with casinos and other 
businesses have plenty of money. In reality, with all the service needs 
of the citizens ranging from health, sanitation and basic food and 
housing, the funds are prioritized to provide jobs and assist with 
basic needs of families. Health care cost increases due to 
methamphetamine use are caused by related effects on teeth, liver, 
kidneys, heart, blood pressure, brain, skin and the treatment 
prescriptions. The cost of care of methamphetamine-positive infants and 
children abused by addicted parents has increased, but we do not have 
adequate funding for the care of these children. Methamphetamine has 
increased the need for treatment and detention center contracts. 
Methamphetamine has increased the cost of rehabilitation on houses 
contaminated by clandestine labs.
    Cherokee Nation Marshals travel more than 36,000 miles per year 
patrolling over 111 Cherokee housing sites, 105,922 acres of trust and 
restricted lands, 5 casinos, and 51 businesses. Present resources are 
inadequate to address needed personnel, essential equipment such as 
ballistic vests, vehicles and vital communications systems upgrades.
    We are pleased about the Initiative within the President's FY 2008 
budget request. The Initiative provides for a $16 million increase in 
funding to strengthen law enforcement capabilities on tribal lands by 
providing $5 million to hire and train additional law enforcement 
officers; $5 million to increase staff at Indian detention facilities 
and for training detention officers; and $6 million to provide 
specialized drug enforcement training for officers and public awareness 
campaigns about the dangers of methamphetamine use for tribal 
communities. The Initiative will bring the total funding for BIA law 
enforcement to $233.8 million. We hope the tribes will benefit from the 
additional appropriations because improvements to public safety in 
Indian Country are greatly needed. The Cherokee Nation and other 
Oklahoma tribes are in dire need of sustained funding for officers, 
prevention campaigns, and necessary communication/data resources.
    Mr. Chairman, we want to thank you for holding this hearing on such 
an important subject for Indian Country. We hope our testimony will 
assist you and your colleagues in making decisions to improve the 
safety of our people who reside on Indian lands.
    We will be happy to answer any questions you may have.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Byron L. Dorgan to 
             W. Patrick Ragsdale and Christopher P. Chaney

    Question 1. Your testimony referred several times to the need for 
more law enforcement officers in Indian Country. I understand that one 
of the issues is the ability for the Indian Police Academy in Artesia, 
NM, to accommodate the number of trainees needed. How many officers 
does the Academy train each year?
    Answer. The Indian Police Academy trains approximately 192 police 
officers, 192 corrections officers, and 60 telecommunication officers, 
annually.

    Question 2. Would BIA consider arrangements with state law 
enforcement training programs so that a person trained by the state 
would be qualified for BIA law enforcement employment?
    Answer. The quality and quantity of instruction received at state 
police academies varies. We require that all Bureau of Indian Affairs' 
law enforcement officers receive training at the Indian Police Academy 
so that our Federal officers meet our standards. Tribal law enforcement 
may also attend the Indian Police Academy, however, some tribes send 
their officers to state academies.

    Question 3. I understand that this used to be the case in North 
Dakota. Why is this not allowed any more?
    Answer. The practice of sending Federal Bureau of Indian Affairs' 
(BIA) law enforcement personnel to the state law enforcement training 
program to receive training was discontinued so that all personnel 
could receive the same high standards and quantity of training 
nationwide.

    Question 4. What is the waiting list to attend Artesia?
    Answer. There is no waiting list to attend Artesia.

    Question 5. What is the drop-out rate at Artesia? We have been told 
that it is high, and that recertification of current officers at 
Artesia often ends in their leaving law enforcement. Is this true?
    Answer. The Indian Police Academy loses approximately 30 percent of 
each class due to academic failure. Additional reasons for failure 
include inability to pass physical fitness requirements, injuries, rule 
violations, and personal reasons.

    Question 6. I know at least one tribal college, United Tribes 
Technical College, has a law enforcement training curriculum, and would 
like to supplement the training offered at Artesia. Has BIA considered 
entering into cooperative agreements with the tribal colleges to 
provide this training? If not, why?
    Answer. Yes, the Indian Police Academy is discussing possible 
cooperative relationships with outside educational institutions, 
including the United Tribes Technical College (UTTC). UTTC is one of 
several organizations that have approached BIA with proposals to 
supplement the training offered at the Indian Police Academy. While 
UTTC may offer academic classes in criminal investigation or similar 
subjects related to law enforcement, BIA law enforcement officers must 
receive basic Federal law enforcement certification, which they cannot 
receive from a state police academy or a university. Federal law 
enforcement academies, including BIA's own Indian Police Academy, are 
the only institutions that offer such certification to police officers.

    Question 7. Can you talk about the role of Special Law Enforcement 
Commission officers? Are there particular crimes these officers respond 
to?
    Answer. Special Law Enforcement Commissions can be issued by the 
Bureau of Indian Affairs to qualified tribal officers (and with the 
consent of the tribe to qualified state/local officers). These 
commissions allow officers to enforce violations of Federal law which 
occur in Indian country.

    Question 8. Does BIA assess inmates for suicidal tendencies during 
intake?
    Answer. Yes, the Bureau of Indian Affairs arranges for mental 
health assessments during the intake process for both juveniles and 
adults.

    Question 9. If there is a suicide attempt or completion, are BIA 
officers notified?
    Answer. Yes, the Bureau of Indian Affairs officers are immediately 
notified of all suicide attempts. The officers, then notify the Deputy 
Director for Justice Services at headquarters in Washington, D.C.

    Question 10. Are they trained to respond?
    Answer. Yes, all Bureau of Indian Affairs officers are required to 
complete 8 weeks of basic correctional officers training at the Indian 
Police Academy. Training at the Academy includes coursework in dealing 
with suicidal inmates.

    Question 11. When a prisoner escapes from a detention facility, are 
local, tribal and state law enforcement notified?
    Answer. In the event of an escape, the corrections officer in 
charge must immediately notify the Bureau of Indian Affairs or Tribal 
Police, and state and local law enforcement authorities by telephone 
and telefax utilizing an escape flyer form which requires inmate 
specific data.

    Question 12. What reporting protocols are in place for serious 
incidents that occur at BIA and tribal/638 detention facilities?
    Answer. All serious incidents are reported to the Bureau of Indian 
Affairs' (BIA) supervisory corrections personnel. Tribal detention 
programs also report serious incidents through BIA corrections 
supervisors, utilizing the same protocol notifications and pass the 
information to the Deputy Director for Justice Services in Washington, 
D.C.

    Question 13. What is the average number of detention officers per 
shift?
    Answer. The average number of correctional officers on duty per 
shift at our Bureau of Indian Affairs' correctional facilities is two.

    Question 14. Have there been instances of assaults on these few 
detention officers?
    Answer. Yes, Bureau of Indian Affairs' correctional officers have 
been assaulted.

    Question 15. Has the BIA explored alternatives to detention for 
individuals who have been arrested and are intoxicated?
    Answer. The BIA corrections personnel have been reaching out to 
private entities that provide treatment programs for inmates with 
substance abuse issues. The BIA anticipates establishing contracts with 
these entities to address detention alternatives for substance abuse 
cases.

    Question 16. What sort of maintenance schedule does BIA have for 
detention facilities?
    Answer. Each Bureau of Indian Affairs' agency or tribal facility 
manager is responsible for providing an on-going maintenance program to 
address preventative, routine, cyclical, and emergency unscheduled 
maintenance.

    Question 17. Given the shortage of law enforcement officers, for a 
tribe that receives services directly from BIA, what happens to the 
public safety needs of that tribe in instances where BIA has to 
redirect officers to a particular crisis somewhere else?
    Answer. The Bureau of Indian Affairs (BIA) law enforcement officers 
are sometimes given temporary assignments to other reservations in 
order to cover short term staffing needs. For example, after Hurricane 
Katrina in 2005, BIA law enforcement officers assisted the Mississippi 
Choctaw Tribe with their needs. Other examples include temporary detail 
assignments to assist tribes hosting an event such as a pow-wow, rodeo, 
or fair, which may attract large numbers of people to that specific 
reservation. When a detail assignment is made, managers are careful to 
ensure that enough officers are left on the ``contributing'' 
reservation to provide for adequate public safety needs.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Pete V. Domenici to 
             W. Patrick Ragsdale and Christopher P. Chaney

    Question 1. What law enforcement resources, both officers and 
support personnel, does the BIA have deployed in New Mexico at this 
time?
    Answer. The Bureau of Indian Affairs has 8 criminal investigators, 
27 police officers, 10 telecommunications officers and 5 support staff 
within our offices in the State of New Mexico.

    Question 2. How are law enforcement officers assigned to districts 
or tribes? And how many individual officers are assigned to the 
districts or tribes?
    Answer. The Bureau of Indian Affairs' law enforcement officers are 
assigned to the duty locations designated on the vacancy announcement. 
Tribal law enforcement agencies make their own determinations regarding 
assignments.

    Question 3. What flexibilities does the Bureau have to allocate 
resources among the districts or tribes to target specific types of 
crime or patterns of criminal activities?
    Answer. The Bureau of Indian Affairs provides assistance to tribal 
communities that are in need of additional law enforcement support by 
temporarily detailing officers or support staff, as needed.

    Question 4. What program(s) or assistance does BIA provide to local 
tribes for the training of local tribal law enforcement officers?
    Answer. The Indian Police Academy (IPA) accepts tribal law 
enforcement officers to the Basic Police Officer and Basic Correctional 
Officer program without expense to the tribes. The IPA also provides 
room and board at no additional cost.

    Question 5. In 2004, the Department of the Interior's Inspector 
General issued a report entitled ``Neither Safe Nor Secure.'' The 
report outlined the poor conditions of detention facilities throughout 
Indian Country. The 2004 Report issued several recommendations, 
including the recommendation that the Department of Justice (DOJ) and 
the Bureau of Indian Affairs (BIA) develop strategic plans for 
correctional facility replacement and renovation, and that DOJ should 
assist BIA in developing a comprehensive needs assessment to ensure 
correctional facilities are built and sized appropriately. How have the 
BIA and DOJ worked together to implement the recommendation, and what 
is the status of plans for correctional facility replacement and 
renovation?
    Answer. Since 2005, the BIA and the Department of Justice's (DOJ) 
Bureau of Justice Assistance have actively worked together to assess 
needs for facility replacement and renovation. In September 2006, the 
BIA and DOJ held a conference in Albuquerque, New Mexico with several 
tribes regarding planning for the future of corrections and detention 
in Indian Country.

    Question 5a. Would it be helpful for Congress to clarify what type 
of collaborative process would be required for BIA and DOJ's work on 
correctional facility replacement and collaboration?
    Answer. No. We believe our collaborative efforts will result in 
better policy and use of limited resources.

    Question 6. There has been significant media attention regarding 
the lack of correctional facilities on the Navajo Nation in northwest 
New Mexico. I have attached a recent article on the subject from the 
Albuquerque Journal. On May 4, 2007, the AP issued a lengthy article 
outlining the condition of detention facilities in the Navajo Nation. 
It is my understanding that two of its seven correctional facilities 
recently closed and there are only 59 beds for all detainees. What are 
the BIA and the DOJ doing to help address the lack of correctional 
facilities adequacy and capacity on the Navajo Nation?
    Answer. In October 2005, the BIA established a contract at McKinley 
County, located in Gallup, New Mexico, in the amount of $455,520, to 
address Navajo Nation's stated need to urgently close the Tuba City 
Adult detention facility. From October 2005 through September 30, 2006, 
the BIA continued to request progress reports on the Navajo Nation's 
efforts to fully close the facility. A total of $427,635 was actually 
spent by the BIA for contracted beds at McKinley County for the Navajo 
Nation, during this period. In response to the Navajo Nation's recent 
request for assistance in the closure of the Chinle Adult Detention 
facility, a contract with McKinley County was initiated and made 
available to the Navajo Nation on May 1, 2007, for 20 beds.

    Question 7. The Navajo Nation justice system has been in existence 
since April 1, 1959. The Navajo Nation Judicial Branch is responsible 
for the administration of the Supreme Court, 10 district courts, 
traditional peacemaking in 110 chapters, and the provision of probation 
services throughout the Navajo Nation. Currently, the Navajo Nation 
Supreme Court is in a dilapidated state, and in need of reconstruction. 
The Navajo Nation has set aside land and worked on engineering plans 
for a new building. What assistance is currently available through the 
BIA or the DOJ to help the Navajo Nation with this project?
    Answer. The BIA cannot speak on behalf of the Department of Justice 
on this matter. With regard to the BIA, we have not received 
appropriations to build new structures for the Navajo Nation justice 
system.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Craig Thomas to 
                          Regina B. Schofield

Violent Crime and Sexual Violence
    Question 1. Have the rates of violence against Indian women 
decreased?
    Answer. Yes. According to the National Crime Victimization Survey 
(NCVS), violent crime rates have decreased for Native American women. 
During the years 1992-1996 the average annual violent crime rate among 
American Indian women was 98 per 1,000 persons age 12 and older; during 
the period 1992-2001 the average annual rate was 86 per 1,000; and 
during the most recent time period 1995-2004 the average annual rate 
was 72 per 1,000.
Adam Walsh Act
    Question 2. Congress passed the Adam Walsh Child Protection and 
Safety Act last year and the Committee is aware that the Department has 
held meetings with Indian Tribes to discuss this Act over this past 
year. What implementation issues have been raised in those meetings?
    Answer:

    1. Tribes have asked which Public Law 83-280 (P.L. 280) tribes are 
included in the mandatory delegation of the registration obligation to 
the states under the Adam Walsh Act. Per the Adam Walsh Child 
Protection and Safety Act, Pub.L. No: 109-248, (``Adam Walsh Act''), 
the Department has explained that the delegation applies only to tribes 
subject to the law enforcement jurisdiction of the state as provided in 
18 U.S.C. 1162: tribes in Alaska, California, Minnesota, Nebraska, 
Oregon, and Wisconsin. Within those six states, the delegation does not 
apply to those tribes exempt or retroceded from P.L. 280.

    2. Other tribes have asked whether there is an inconsistency 
between registry provisions of the Adam Walsh Act and Violence Against 
Women Act of 2005 (VAWA). Following Congress' direction under the Adam 
Walsh Act, the Department oversees the National Sex Offender Registry 
operated by the FBI, and the Dru Sjodin National Sex Offender Public 
Website (www.nsopr.gov). All available tribal, state, and territorial 
information on sex offenders is fed into these national databases in 
accordance with Congress' intent under VAWA to make sex-offender 
registry information available nationally.

    3. Tribes have also inquired as to how to best coordinate with the 
Federal Goverment on registration of a Federal prisoner intending to 
reside on a reservation after his release from prison. The Department 
desires to work closely with the tribes on registration of such 
prisoners. Under the Sex Offender Registration and Notification Act 
(SORNA), sex offenders in Federal or military prison are integrated 
into the sex offender registration programs of the States and other 
(non-Federal) jurisdictions following their release. Under Federal law, 
the Federal and military correctional supervision personnel must notify 
the receiving jurisdiction's authorities that a sex offender will be 
released to their area. Furthermore, these sex offenders are 
independently required to comply with the SORNA registration 
requirements, and may be federally prosecuted if they fail to do so.

    4. Tribes have also asked about the July 27, 2009 implementation 
deadline and the possible delegation of registry functions to the 
state. The Department continues to provide training and technical 
assistance to the tribes with regard to implementation and has posted a 
tribal solicitation and a training and technical assistance 
solicitation on implementation. As for the July 27, 2009 deadline, the 
Adam Walsh Act requires substantial compliance by that deadline. The 
deadline for substantial compliance may be extended to July 27, 2011 
under the Act's provision allowing jurisdictions to receive up to two 
1-year extensions of the deadline.

    5. Some tribes appear to believe that the Act requires tribes to 
provide the state ``access to its territory and such other cooperation 
and assistance as may be needed to enable such other jurisdiction or 
jurisdictions to carry out and enforce the requirements'' of the Act. 
For those tribes eligible to be registry jurisdictions, the Act does 
not provide such access, cooperation, and assistance unless a 
delegation is made. Tribes choosing to be registry jurisdictions do not 
need to grant the state access or assistance.

    6. Resource limitations have been raised by tribes. The Department 
understands the concerns in this area and has taken action to alleviate 
those concerns. For example, the Department has issued the Adam Walsh 
Act Implementation Grant Program. The solicitation provides tribes and 
tribal organizations funding for a variety of programs assisting in the 
implementation of the SORNA, including, among other things, (1) 
developing or enhancing sex offender registration programs or 
functions; (2) supporting address verification of sex offenders in a 
jurisdictional area or areas; (3) providing support for coordinated 
interagency and interjurisdictional efforts; (4) improving law 
enforcement and other justice agency information sharing as it relates 
to investigation and prevention of sex crimes and offender 
accountability; (5) developing and enhancing specialized units and 
functions in law enforcement agencies in furtherance of the objectives 
of the program; and (6) developing or enhancing local absconder 
apprehension efforts. In addition, the Department is working with 
tribes on developing cooperative agreements that enable tribes to 
fulfill their obligations under the SORNA without the expense of 
creating an independent registry while at the same time preserving 
tribal sovereignty. The Office of Justice Programs, Bureau of Justice 
Statistics (BJS) has funded SEARCH (the National Consortium for Justice 
Information and Statistics) to provide tribal jurisdictions with 
technical assistance for criminal record development and improvement. 
This includes participation in the National Sex Offender Registry 
(NSOR), National Sex Offender Public Registry (NSOPR), State and 
Federal protection order registries, National Instant Criminal 
Background Check System (NICS), National Crime Information Center (NCIC 
2000), and the Integrated Automated Fingerprint Identification System 
(IAFIS). Technical assistance is also available to help tribal 
jurisdictions respond to criminal history record-related provisions 
contained in the Violence Against Women and Department of Justice 
Reauthorization Act of 2005 and the Adam Walsh Child Protection and 
Safety Act of 2006.

    7. Some tribes have asked whether the Act requires any tribal court 
conviction, regardless of the seriousness of the offense, to be treated 
as a tier I offense (15 year registration requirement). The Department 
has stressed that the Act is a floor not a ceiling. Although the Act 
requires a minimum of 15 years registration for tier I offenses, tribes 
are free to require longer registration. For example, if it chooses, a 
tribe may require all sex offenders to register for life, regardless of 
the seriousness of the offense. Thus, any jurisdiction may choose to 
treat tribal convictions in any fashion that exceeds the minimum SORNA 
standard.

    8. Earlier in the summer, some tribal leaders and national Native 
American organizations expressed a desire to have the July 27, 2007 
election deadline extended. Please see the answer below discussing the 
difference between the election deadline and the implementation 
deadline and explaining why an extension of the election deadline is 
not necessary.

    Question 3. Do all Indian tribes have the capability to have a sex 
offender registry?
    Answer. Although not all Indian tribes currently have the technical 
capability to have an independent sex offender registry, the Act 
requires only that eligible tribes have exercised their election to 
function as a registration jurisdiction by July 27, 2007. All 
jurisdictions have until July 27, 2009 to substantially implement the 
Act. Moreover, tribes do not need to create independent registries; 
instead, tribes may enter into cooperative agreements with the State, 
local units of government, or other tribes. Under the law, a tribe 
retains broad discretion to create an agreement that meets the needs 
and desires of that tribe. The Act also provides that jurisdictions may 
request up to two 1-year extensions of the compliance deadline. It is 
expected that technical assistance, training and grant money will 
assist tribal capability to implement the Act prior to July 27, 2011.

    Question 4. Should the July 27, 2007 deadline for Indian tribes to 
elect into the registry system be extended to address any 
implementation issues?
    Answer. An extension of the election deadline is not necessary to 
address issues pertaining to implementation because the election 
deadline is wholly separate from the implementation deadline. The July 
27, 2007 deadline effectively addresses only the date by which an 
eligible tribe must by ``resolution or other enactment'' elect to 
retain its option to function as a registration jurisdiction. The tribe 
electing to function as a registration jurisdiction may later rescind 
its election and delegate the responsibility to the state. It should be 
noted that the deadline does not apply to over 350 mandatory P.L. 280 
tribes, currently subject to the law-enforcement jurisdiction of their 
states. Under Section 127, the Act delegates implementation of the 
registries to the mandatory P.L. 280 states.
    An extension of the July 27, 2007 deadline may delay implementation 
of the Adam Walsh Act by reducing the time a tribe or state has to 
implement the SORNA standards or to negotiate a cooperative agreement. 
Any extension of the election deadline compresses the amount of time 
available for the tribe or state to implement SORNA and meet the 
compliance deadlines. In addition to the election deadline, all 
jurisdictions have an implementation deadline of July 27, 2009 to 
implement the Act. Jurisdictions may also request up to two 1-year 
extensions of the compliance deadline, making July 27, 2011 the outer 
deadline for implementation.
Tribal Youth Gangs
    Question 5. The number of youth gangs has increased in Indian 
Country. Please describe the efforts undertaken by the Department to 
combat youth gangs and what progress has been made?
    Answer. The Department of Justice's Office of Justice Programs 
(OJP) works with nine other Federal agencies in supporting the 
President's Helping America's Youth (HAY) initiative, OIP's Office of 
Juvenile Justice and Delinquency Prevention (OJJDP) helps ensure that 
gang prevention is a significant focus of this broad-scope effort by 
promoting awareness of gang prevention at a senior level within the 
Administration and disseminating information to gang prevention 
practitioners.
    OJJDP also supports the National Youth Gang Center (NYGC), which 
assists policymakers, practitioners, and researchers in their efforts 
to reduce youth gang involvement and crime. NYGC provides information, 
resources, practical tools, and expertise toward the development and 
implementation of effective gang prevention, intervention, and 
suppression strategies.
    OJP has undertaken many other efforts to combat youth gangs. In 
Fiscal Year 2006 OJP dedicated $30 million under for its recent ``Anti-
Gang Initiative'' to fund new and expanded anti-gang prevention and 
enforcement efforts under the Project Safe Neighborhoods (PSN) 
Initiative. The new Anti-Gang Initiative funds are enhancing PSN task 
force efforts to combat gangs by building on effective PSN strategies 
and partnerships. Through the development of district-wide 
comprehensive anti-gang strategies, the U.S. Attorney in each of the 94 
Federal judicial districts is partnering with local law enforcement and 
others in the PSN task force 10 pattern strategies after PSN's 
essential elements. Two of the PSN Anti-Gang Initiative projects (one 
in South Dakota and one in Wyoming) focus on gangs in Indian country. 
In Fiscal Year 2006, OJP dedicated an additional $15 million for anti-
gang programs to six sites that had been experiencing particularly 
severe gang problems. For Fiscal Year 2007 we expect to award an 
additional $31 million in Fiscal Year 2007 for the PSN Anti-Gang 
Program.
    OJP's Bureau of Justice Assistance administers the Gang Resistance, 
Education, and Training (G.R.E.A.T.) program, through which law 
enforcement officers teach life skills to young people to help them 
avoid joining gangs or engaging in other destructive behavior. In 2006, 
BJA awarded more than $14 million to support local G.R.E.AT. programs 
in 141 communities from 36 states. Three of these G.R.E.AT. sites are 
in Indian country--the White Earth Band of Chippewa in Minnesota; Lummi 
Nation in Washington state; and the Menominee Indian Tribe of 
Wisconsin.
    Funding is also available for anti-youth gang activities through 
the Tribal Youth Program (TYP). TYP is part of the Indian Country Law 
Enforcement Initiative, a joint initiative of the U.S. Departments of 
Justice and the Interior to improve law enforcement and juvenile 
justice in Indian country. The TYP supports tribal efforts to prevent 
and control delinquency and improve tribal juvenile justice systems for 
American Indian/Alaska Native (AI/AN) youth. Six of the Fiscal Year 
2006 TYP grantees are focusing, at least in part, on gang activity--the 
Poarch Band of Creek Indians in Alabama; the Hualapai Indian Tribe in 
Arizona; the Fond du Lac Band of Lake Superior Chippewa in Minnesota; 
the Mescalero Apache Tribe in New Mexico; and the Lower Brule Sioux 
Tribe in South Dakota.
    In an effort to address the alarming growth of Native American gang 
activity, the FBI's Indian Country Unit (ICU) has collaborated with 
noted Native American gangs expert, Christopher Grant, to examine gang 
behaviors throughout Indian Country. To date, the ICU has sponsored 16 
assessments by Mr. Grant of Native American reservations throughout 
Indian Country to identify emerging gang activity at those locations, 
and he will conduct additional assessments in FY 2008. When Mr. Grant 
identifies such activity, he holds ``town hall'' meetings with 
community and local law enforcement officials to ensure they are aware 
of the activity. While Mr. Grant may suggest some general response 
strategies at these meetings, such as the removal of graffiti 
identifying gang membership, the response strategy is primarily 
developed by local and tribal law enforcement along with appropriate 
task forces, which often include FBI representatives.

    Question 6. Is the distribution of methamphetamine related to the 
increase in youth gang activity? If so, how is the Department 
responding to this situation?
    Answer. The National Youth Gang Center (NYGC), an OJP grantee, 
indicates that there is currently no research demonstrating a link 
between methamphetamine use and increased gang activity. The NYGC is 
aware of ongoing research into drug trafficking in Indian country that 
may shed further light on the subject. The Department will keep the 
Committee informed of any new developments.

    Question 7. Is the Department considering instituting education 
programs in juvenile jail facilities in Indian Country? If not, why 
not?
    Answer. Both the Tribal Youth Program and the Tribal Youth Juvenile 
Accountability Discretionary Grant (Tribal JADG) funds can be used for 
programming--including educational programming and gang prevention/
intervention programs--in residential facilities for juvenile 
offenders, as well as community-based programming for offenders. To 
date, none of the TYP or Tribal JADG grantees have chosen to use their 
funds for educational programs in residential facilities for juvenile 
offenders.
    In 2006, OJJDP, in conjunction with the Substance Abuse and Mental 
Health Services Administration and the Bureau of Indian Affairs, hosted 
a forum on juvenile justice, substance abuse and metal health for 
tribal youth involved in the justice system.
    According to OJP's Bureau of Justice Statistics, few tribes have 
their own juvenile residential facilities. Out of the tribes that have 
tribal court systems, most of them used the juvenile residential 
facilities of another tribe and or place juveniles in county or non-
tribal agency facilities. Tribes are more likely to offer counseling, 
require community service or require restitution from juvenile 
offenders without incarceration.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Pete V. Domenici to 
                          Regina B. Schofield

    In 2004, the Department of Interior Inspector General issued a 
report entitled ``Neither Safe Nor Secure.'' The report outlined the 
poor conditions of detention facilities throughout Indian Country. The 
2004 Report issued several recommendations, including the 
recommendation that Department of Justice and BIA develop strategic 
plans for correctional facility replacement and renovation, and that 
DOJ should assist BIA in developing a comprehensive needs assessment to 
ensure correctional facilities are built and sized appropriately.
    Question 1. How has the BIA and DOJ worked together to implement 
the recommendation above, and what is the status of plans for 
correctional facility replacement and renovation?
    Answer. The Department of Justice (DOJ) has developed a strong 
collaborative partnership with the Bureau of Indian Affairs (BIA) to 
help tribal nations assess correctional needs and ensure the completion 
of planned facilities and renovations consistent with the Inspector 
General's recommendations. The Department's Office of Justice Programs 
(OJP) has worked closely with BIA's Office of Justice Services to 
assess projects and develop strategies to address these 
recommendations, including training and technical assistance and 
listening conferences with tribal leaders. The September 2006 listening 
conference focused specifically on planning for the future of 
corrections and detention in Indian country.
    Since Fiscal Year 1998, OJP's Bureau of Justice Assistance (BJA) 
has also assisted tribal leaders in completing 15 new construction 
projects with BIA Certificates of Occupancy. This coordination has 
helped ensure joint and consistent resource planning to build and 
manage these tribal facilities. ill 2006, BJA began offering grants to 
tribes to support the renovation of facilities to bring them into 
compliance with Federal site and sound separation requirements--another 
OIG recommendation. In 2007, BJA is administering tribal programs to 
provide funding to support the renovation of existing facilities, and 
planning grants to help tribes first assess their corrections needs, 
then build comprehensive plans for correctional facilities. These 
projects will continue to be implemented in collaboration with BIA to 
assist tribes in identifying operating resources as part of the 
planning process for new facilities.
    DOJ and BIA recently coordinated a Tribal Corrections Working Group 
in Albuquerque, NM, where discussions focused on recommendations 
including that: (1) new construction funding be tied to a commitment 
for adequate funding for facility maintenance and operating expenses; 
(2) decisions to fund construction of new facilities be based on needs 
assessments showing a demonstrable need for a facility, available 
alternatives to minimize bed needs, and population projections and 
profiles that show a need for secure beds and/or space for non-custody 
programs; (3) constructions costs be limited and based on best 
practices and past experience developing detention and correctional 
facilities in Indian country; (4) greater cooperation among all 
stakeholders in Indian country corrections and juvenile justice systems 
be encouraged, including courts, probation, social services, Indian 
Health Services, and education providers; (5) an array of detention and 
correctional building options, including prototypical or quasi-
prototypical concepts/designs for local jails, local juvenile 
facilities, multi-service centers, and regional juvenile and adult 
correctional facilities be further explored.
    On July 30, 2007, OJP staff met with BIA and HUD staff to discuss 
ongoing collaboration for detention facilities and committed to 
maintaining an ongoing dialogue on an interdepartmental basis. All 
three agencies are involved in joint training & technical assistance 
sessions with tribes. Four such sessions were held in 2007 and 
detention facilities workshops were conducted at the most recent 
session held July 30, 2007 in Phoenix, AZ. OJP, BIA and HOD agreed to 
continue these joint efforts as well.

    Question 2. Would it be helpful for Congress to clarify what type 
of collaborative process would be required for BIA and DOJ's work on 
correctional facility replacement and collaboration?
    Answer. As noted above, DOJ and the BIA continue to effectively 
partner to share information, conduct ongoing meetings, and coordinate 
regional and national training opportunities to support and sustain 
correctional facility operations in Indian country.
    There has been a significant media attention regarding the lack of 
correctional facilities on the Navajo Nation in northwest New Mexico. I 
have attached a recent article on the subject from the Albuquerque 
Journal. On May 4, 2007, the AP issued a lengthy article outlining the 
condition of detention facilities in the Navajo Nation. It is my 
understanding that two of its seven correctional facilities recently 
closed and there are only 59 beds for all detainees.

    Question 3. What is the BIA and DOJ doing to help address the lack 
correctional facilities adequacy and capacity on the Navajo Nation?
    Answer. The Department has met with Navajo Nation officials to 
discuss correctional issues impacting the Nation, and has coordinated 
the discussions with BIA. In these meetings, BJA offered a range of 
technical assistance to assist in the efforts. A list of current grant 
resources was also shared with officials, including the upcoming 
solicitations for planning correctional needs and renovation of tribal 
correctional facilities.
    The Navajo Nation justice system has been in existence since April 
1, 1959. The Navajo Nation Judicial Branch is responsible for the 
administration of the Supreme Court, ten district courts, traditional 
peacemaking in 110 chapters, and the provision of probation services 
throughout the Navajo Nation. Currently the Navajo Nation Supreme Court 
is in a dilapidated state, and in need of reconstruction. The Navajo 
Nation has set aside land and worked on engineering plans for a new 
building.

    Question 4. What assistance is currently available through the BIA 
or the DOJ to help the Navajo Nation with this project?
    Answer. BJA's FY 2007 tribal programs will provide renovation 
funding for tribal correctional facilities, including local facilities, 
multi-service centers, and regional facilities, out of compliance with 
Federal compliance standards, and planning grants. These will help 
tribes interested in establishing a collaborative process to plan 
strategies to design and construct new detention facilities; build onto 
existing structures; or renovate existing structures for compliance 
with BIA safety requirements. While BJA's FY 2007 Edward Byrne Memorial 
Discretionary Grants Program does not allow funds to be used for 
construction, funds could be used to improve or enhance local court 
functions and corrections efforts, including reentry.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Lisa Murkowski to 
                          Regina B. Schofield

    I appreciate that you do not have supervisory responsibility over 
the work of the Office of Violence Against Women, but in your role on 
the Justice Programs Council on Native American Affairs, I wonder if 
you might address the recent report by Amnesty International on Sexual 
Violence in Indian Country.
    Question 1. My question is whether the [Amnesty International] 
report [is] being read within the Justice Department, what are the 
Department's initial views on it and does the Department plan to 
implement any of its recommendations?
    Answer. Members of Office of Violence Against Women (OVW)'s senior 
management team have read the report. During the summer of 2005, 
several members of OVW's senior management team made themselves 
available to meet with representatives from Amnesty International to 
discuss OVW's efforts to address the sexual assault of Indian women. 
OVW was disappointed that none of the information on its efforts, or 
the efforts of its grantees, were included in the published report. OVW 
has been actively implementing some of the recommendations for a number 
of years.
    For example, the report includes a recommendation that ``[f]ederal 
authorities should work with Indigenous women's organizations in the 
USA to articulate an Indigenous concept of gender-based violence and 
Indigenous anti-violence strategies in order to more rigorously 
respect, protect and fulfill the rights of Native American and Alaska 
Native women.'' OVW appreciates that Alaska Native and American Indian 
women should assume a leadership role in advocating for systemic change 
in the way that violence committed against Indian women is viewed. OVW 
takes great pride in noting that the overwhelming majority of the 
tribal coalitions cited in the Amnesty International Report were 
started, in part, with seed funding from OVW's Tribal Domestic Violence 
and Sexual Assault Coalitions Program (Tribal Coalitions Program).
    Funding from the Tribal Coalitions Program currently supports the 
operation of 18 tribal domestic violence and sexual assault coalition 
programs across Indian country. The tribal coalitions funded by OVW 
provide training to both Native and non-Native organizations and 
agencies that serve Indian victims of domestic violence, sexual assault 
and dating violence. They also conduct public awareness and community 
education campaigns in tribal communities to increase the public's 
understanding of violence committed against Indian women, and provide 
technical assistance to the tribal government victim services programs 
and tribal nonprofit programs that make up their membership. The work 
that these coalitions have done to educate Indian tribal government 
leaders and community members, as well as Federal, state, and local 
leaders about violence committed against Indian women has had a 
tremendous impact on national policy. The women who operate these 
coalitions were at the heart of the effort to include Title IX, the 
Safety for Indian Women Act, in the Violence Against Women Act of 2005.

    I understand that the National Institute of Justice falls within 
your portfolio and that organization is conducting a national baseline 
study to address issues like domestic violence, sexual assault, 
stalking, and homicide in the context of sexual assault and domestic 
violence. As I understand the statutory mandate of this report is not 
only to present data but also to evaluate existing responses and make 
recommendations for improvement.

    Question 2. When will that report be delivered to the Congress and 
can you give us a sense of what the recommendations might be?
    Answer. OJP's National Institute of Justice (NIJ) is actively 
involved in developing a program of research on violence against 
American Indian and Alaska Native (AI/AN) women, also known as the 
National Baseline Study on Violence Against Indian Women. Because of 
the broad scope of the study and the complexity of the topic, NIJ has 
chosen to refer to it as a ``program of research,'' rather than a 
single baseline study.
    In preparation for the program of research, NIJ established a 
research and dissemination working group to assist with the work 
mandated by Title IX of the 2005 Violence Against Women Act. The 
participants include staff from NIJ and Office of Justice Programs 
agencies and bureaus, as well as other Department of Justice 
representatives. Federal partners include the Bureau of Indian Affairs, 
the Centers for Disease Control and Prevention (CDC), the Census 
Bureau, and the Department of Health and Human Services. The working 
group has already met several times to outline the steps necessary to 
meet the Congressional mandate.
    There are many activities associated with this initiative, 
including the development of a comprehensive outreach component to all 
562 federally recognized Indian tribes and Alaskan Native Villages and 
Corporations and a Task Force to help oversee the work of the Institute 
in this area. The Office on Violence Against Women is charged with 
putting the Task Force into place. NIJ will proceed with developing a 
research agenda to address the congressional mandate once the Task 
Force is operational.
    Other activities underway regarding this initiative include the 
commissioning of a report that will highlight the relevant literature 
and extant research and evaluation in the area of violence against AI/
AN women, and an agreement with the CDC to over-sample AI/AN 
respondents in their next National Intimate Partner and Sexual Violence 
Survey. In the next month or two, NIJ hopes to enter into an agreement 
with the Census Bureau to draft a number of sampling plans to account 
for the diverse and scattered population of AI/AN people that will 
assist them with future research and evaluation in this area.
    The Department plans to submit the Report to Congress on these 
efforts in December 2007, as specified in the 2005 Violence Against 
Women Act.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Craig Thomas to 
                            Matthew H. Mead

    Question 1. Your written testimony discussed the importance of 
support services so victims can exercise their rights as criminal cases 
progress. Please describe the victims support services and how it helps 
the victims through the criminal process?
    Answer. The Department of Justice employs an extensive victim 
assistance network to meet its obligation to support victims of crime 
from investigation to imprisonment. Federal law enforcement agencies, 
United States Attorneys' Offices, and the Bureau of Prisons have victim 
witness personnel who provide services to victims impacted by crime and 
who also educate victims about the criminal justice system to aid them 
in exercising their statutorily guaranteed rights. All department 
personnel are required to use their best efforts to ensure that victims 
are notified of and accorded their rights under the Crime Victims' 
Rights Act. (18 U.S.C. Sec. 3771 (c)(1)).
    Department services and support for victims is very important in 
Indian Country. The Department's efforts are supplemented by vital 
tribal and other local victim witness personnel working in conjunction 
with Federal authorities. To strengthen this coordination, some United 
States Attorneys' Offices have designated Tribal Liaisons who 
coordinate with tribal authorities. In addition, to further foster 
cooperation, periodic Indian Country Conferences are held for Federal, 
tribal, and local authorities.
    During an investigation, law enforcement victim witness personnel 
provide services to meet immediate needs, such as referring victims to 
appropriate medical and social services, providing information 
regarding temporary shelter, and exploring options for relief from 
intimidation and harassment, such as protection orders. When safety is 
a concern, they assess possible threats and coordinate any security 
measures deemed necessary. In addition, victim witness staff members 
keep victims apprised of the status of the investigation to the extent 
that it will not interfere with the investigation and notify victims 
when arrests are made.
    FBI Victim Specialists (VS) are often on the scene soon after a 
crime occurs, providing crisis intervention and arranging for emergency 
services. FBI VSs often physically transport victims to medical care 
facilities or temporary/emergency shelters. If no shelter is available 
locally, the VS contacts the Office of Victim Assistance (OVA) at FBI 
Headquarters to obtain emergency funding for temporary commercial 
lodging or the transportation expenses involved in relocating the 
victim to a safe place. In the case of a child victim, the VS may 
facilitate an interview at a children's advocacy center or by an FBI 
Child Interview Specialist.
    If charges are filed, victims are then guided through the criminal 
prosecution process by victim witness professionals at the United 
States Attorneys' Offices. Victims have the right to be notified of 
court hearings, to be heard at public proceedings regarding the 
release, plea, or sentencing of the offender, to attend public 
proceedings, and to consult with the prosecutor regarding the case. In 
addition, the victim witness staff aids victims in giving written or 
oral input to the court regarding sentencing and also coordinates 
restitution requests for such items as medical costs, counseling or 
therapy costs, lost wages, and reimbursement for stolen items. The 
Federal Crime Victims' Fund is also available to supplement state and 
local funds for losses incurred by victims of crime.
    In sexual assault cases, the Department offers to pay for two 
anonymous and confidential tests of the victim for sexually transmitted 
diseases during the 12 months following the assault and for a 
counseling session with a medical professional regarding the test 
results and the risks resulting from the assault. In domestic violence, 
sexual assault, and stalking cases, victims are offered assistance 
through various programs supported by grants from the Attorney General, 
such as housing assistance, legal assistance, and other services. 
Throughout both the investigation and prosecution, victim witness staff 
members often give information and assistance regarding matters such as 
transportation, parking, childcare, translator services, and other 
logistical information and services available for victims of crime.
    In cases where victim safety is a concern, victim witness 
professionals, working in conjunction with various Department 
components, evaluate the risks to the victim and implement appropriate 
security procedures which may include orders for protection, emergency 
relocation assistance, or in appropriate cases, participation in the 
Witness Security Program. In other instances, victims also receive help 
with such matters as changing phone numbers or privatizing addresses 
and other contact information.
    After sentencing, victim witness personnel from the Bureau of 
Prisons keep victims informed of custody status, release hearings, and 
any release or furlough of the offender. In addition, they facilitate a 
victim's right to be heard at any parole or release hearing.
    Victim witness personnel from all components of the Department work 
together to ensure victims' needs are met and their rights are 
protected during an experience that is frustrating and often traumatic 
for victims. They deserve our best efforts and more.
    The FBI's OVA has dedicated to Indian Country matters a Child 
Forensic Interviewing Specialist who travels throughout tribal lands on 
a weekly basis to conduct sensitive interviews of child victims and 
witnesses under very harsh conditions. In order to better equip Federal 
and tribal investigators to investigate IC child sexual assault 
allegations, the OVA and the FBI's Indian Country Unit developed a 
course to teach Indian Country Forensic Interviewing of Children in FY 
2007. The FBI's OVA and Indian Country Unit sponsored this training 
regionally on three occasions during FY 2007 and have scheduled another 
three training events in FY 2008.

    Question 2. Your written testimony mentioned that accountability 
and demonstrable results are needed for the Bureau of Indian Affairs 
(BIA) Safe Indian Communities Initiative. What type of accountability 
and demonstrable results would you recommend for this Initiative ?
    Answer. The Department of Justice always encourages the effective 
use of government resources and high productivity.

    Question 3. What other recommendations do you have for improving 
the BIA law enforcement services?
    Answer. The Department of Justice is excited about the BIA law 
enforcement services work on the cross designation pilot program. The 
Department is looking forward to the continued development of that 
program.

    Question 4. Your written testimony mentioned the cooperative law 
enforcement agreement between the Northern Arapaho and Eastern Shoshone 
Indian tribes, the Federal and local agencies. What are some of the 
elements of that agreement?
    Answer. Indian country jurisdiction is a complex and difficult 
legal concept for law enforcement officers responding to criminal 
activity. Matthew H. Mead, the former United States Attorney for the 
District of Wyoming, helped untangle those jurisdictional complexities 
with the cross-designation agreement which is the subject of your 
inquiry. That agreement, routinely used by the Bureau of Indian 
Affairs, paved the way for over 100 law enforcement officers from 
several different agencies to work cooperatively in the simultaneous 
execution of 23 arrest warrants and 8 search warrants on and around the 
Wind River Indian Reservation in Wyoming in 2006. This coordinated 
effort, which dismantled the Legarda drug trafficking organization, was 
facilitated in large part by the deputation provisions of the 
cooperative.
    That agreement, similar to the agreements used by the Bureau of 
Indian Affairs, brought together approximately 100 law enforcement 
officers to execute 20 search warrants and effect about 30 arrests. The 
primary element of the agreement is the cross designation of the 
officers from each agency to act under the authority of one another. 
That agreement allowed those officers from Federal, state and tribal 
agencies to pool their resources and cross jurisdictional boundaries to 
fight methamphetamine in Indian Country.

    Question 5. Could this agreement be used as a model for other 
Indian Tribes?
    Answer. Yes, the agreements were created to eliminate 
jurisdictional interference in the efficient use of law enforcement 
resources. The agreements allow officers to act under the authority of 
other law enforcement agencies when responding to or investigating 
crimes. With the complete participation of tribes and Federal, state 
and local law enforcement agencies this agreement would work for other 
tribes. Many other tribes already have similar agreements in place. In 
Oklahoma a statewide Memorandum of Understanding was implemented and 
joined by the majority of the states tribes.
    Another significant but relatively new attempt to resolve 
jurisdictional dilemmas in Indian Country was implemented in April of 
this year. A pilot program, directed by Troy Eid, the United States 
Attorney for Colorado and Chris Chaney, Deputy Director of the Office 
of Justice Services, of the Bureau of Indian Affairs, in cooperation 
with tribal officials, allowed the United States Attorney and his 
Assistant United States Attorneys to train state, local officers and 
tribal officers.
    The officers who participated in the pilot program received 
training on criminal jurisdiction within Indian country, officer 
liability, Federal court procedure, crime scene investigation, report 
writing and other important legal areas. The training required officer 
participation and took less than half the time normally required for 
similar training, 60 officers were trained in a 2-month period. That 
training led to a BIA examination. Successful completion of the BIA 
examination allowed the 60 state, local and tribal officers to be 
federally deputized by the BIA. The officers were from diverse law 
enforcement agencies including: the Southern Ute Tribal Police, Rangers 
and Division of Gaming; the Archuleta, Montezuma, and LaPlata County 
Sheriff's Offices; the Durango and Cortez Police Departments; the 22nd 
District Attorneys Office; and the Colorado State Patrol. Not only did 
the training allow the officers to be deputized, but it better prepared 
them for participation in Federal prosecutions. A second session in 
Colorado trained an additional 24 officers. The United States 
Attorney's Office in Arizona trained 20 tribal officers 16 of those 
officers have received SLEC commissions from BIA.
    Since the success of the pilot program, Troy Eid has worked with 
the Executive Office of the United States Attorneys, the Native 
American Issues Subcommittee and other components of the Department of 
Justice to create a ``train the trainers'' session at the National 
Advocacy Center in South Carolina for Assistant United States 
Attorneys. That session occurred on for August 9th and 10th, 2007. 
Assistant United States Attorneys who are trained will then be able to 
institute similar programs in Indian country throughout the Nation.
    Implementation of these programs require the cooperation and 
dedication of everyone involved. These agreements and cross-
designations will help resolve many jurisdictional issues in Indian 
Country and will allow officers to appropriately respond when duty 
calls.

    Question 6. Please explain the recommendations in the Best 
Practices document prepared for the U.S. Attorney's Offices and 
developed from the Tribal Summit hosted by the Native American 
Subcommittee of the Attorney General's Advisory Committee in October, 
2005?
    Answer. The best practices document is an internal Department of 
Justice memorandum which recommends certain law enforcement and 
prosecutorial practices to recognize and pursue methamphetamine 
traffickers in Indian country. The idea of the best practices document 
began in the past 2 years and was issued as a formal recommendation to 
United States Attorneys this year.

    Question 7. Can you provide a copy of the Best Practices document 
to the Committee?
    [The information referred to follows:]

Native American Issues Subcommittee Recommendations Regarding 
        Methamphetamine Issues in Indian Country--General Best 
        Practices Regarding Methamphetamine Issues
    The Native American Issues Subcommittee (NAIS) recommends that 
Federal, tribal, state and local law enforcement all be involved in 
addressing issues related to methamphetamine in Indian Country (IC).
    Regional multi-jurisdictional investigative task forces have proven 
to be very effective in addressing drug issues in IC, and the NAIS 
recommends that creation of such task forces be considered by each USA 
with IC jurisdiction. For a task force to be effective we believe:

  <bullet> Tribal law enforcement agencies and the Bureau of Indian 
        Affairs (BIA) must be included in the task force;

  <bullet> Cross-designation of state and local members of such task 
        forces is essential;

  <bullet> The USA should have regular meetings with tribal leaders;

  <bullet> The AUSA assigned to the task force should have regular 
        scheduled meetings with the task force;

  <bullet> Regular meetings should occur between the task force 
        officers and assigned prosecutors and the affected tribal 
        councils;

  <bullet> Each USA should work, in conjunction with the task force, to 
        develop confidentiality procedures for task force members; and

  <bullet> Each USA should work, in conjunction with the task force, to 
        develop policies and procedures addressing the sharing of asset 
        forfeiture proceeds with the tribes.

    Because of the reduction in small toxic methamphetamine labs, a 
significant amount of the drug in this country is now manufactured 
outside of the United States. The NAIS recommends that each USA 
consider developing a process for communicating ease-related 
intelligence to task force members and law enforcement agencies working 
outside of the USA's district.
    Because a successful regional task force will necessarily include 
law enforcement personnel not accustomed to working in IC, each USA is 
encouraged to host culturally-specific training for task force members. 
This is recommended so that Native American customs and culture are 
respected by task force members during execution of a law enforcement 
operation on a reservation.
    Drug quantities on reservations are generally smaller than in most 
non-Indian communities. Investigation and prosecution drug quantity 
thresholds should be based on a specific investigation or prosecution 
strategy. Threshold amounts should be adjusted as necessary, based on 
regular communication between investigators and prosecutors. The NAIS 
recommends that each USA consider appropriate adjustments to 
investigation and prosecution thresholds.
    The NAIS recognizes that many children are exposed to 
methamphetamine, leading to a generation of drug endangered children 
(DEC). These children suffer physical or psychological harm or neglect 
resulting from exposure to methamphetamine or exposure to dangerous 
environments where methamphetamine. is manufactured or chemicals used 
to make methamphetamine are accessible. The NAIS encourages USA's to 
initiate DEC teams in their districts.
    During the past 10 years, Mexican drug-trafficking organizations 
have become the dominant manufacturing and distribution group in cities 
in the Midwest and the West, including IC. Sometimes these drug-
trafficking organizations have enlisted allies from government 
organizations and/or agencies. The NAIS encourages task forces to 
explore the possibility of a public corruption case stemming from a 
methamphetamine investigation.
    The NAIS recommends that each USA consider developing a plan for 
methamphetamine lab cleanup in IC and contact information for lab 
cleanup options to disseminate to tribal law enforcement.
    Chronic methamphetamine abuse can lead to psychotic behavior, 
including intense paranoia, visual and auditory hallucinations, and 
out-of-control rages that can result in violent episodes. The NAIS 
recommends that each USA and regional task force work with area heath-
care providers to develop safety plans for medical providers. patients, 
and the public in emergency room departments.

    Question 8. Since its implementation, how has the Best Practices 
document improved the litigation practices and reduced methamphetamine 
abuse in Indian country?
    Answer. There are no baseline statistics available in which a 
reduction of methamphetamine abuse in Indian country could be compared 
in relation to the best practices document. Those from the tribes and 
the Department of Justice who suggested the best practices believe that 
use of those practices will result in a reduction of methamphetamine in 
Indian country.

    Question 9. Please describe the Safe Trails Task Force and how 
successful has it been in reducing violent crime and drug trafficking 
in Indian Country?
    Answer. On March 3, 1994, the FBI initiated ``Operation Safe 
Trails'' with the Navajo Department of Law Enforcement, in Flagstaff, 
Arizona. The purpose of the operation, which would later evolve into 
the Safe Trails Task Force (STTF) program, was to unite the FBI with 
other Federal, state, and local law enforcement agencies. In a 
collaborative effort to combat the continuing growth of violent crime 
in Indian Country. STTF participating agencies include the FBI, Drug 
Enforcement Agency, Bureau of Indian Affairs, Tribal police 
departments, and state and local law enforcement agencies. These Safe 
Trails Task Forces combine their resources in an effective manner to 
address crimes that would normally be under addressed or unaddressed 
without the STTF. There are currently 16 STTFs funded by the FBI:

        Safe Trails Task Force Locations:

        Northern Plains Safe Trails Task Force (Pierre, SD)
        Menominee Indian Reservation Task Force (Green Bay, WI)
        Fort Apache Safe Trails Task Force (Lakeside-Pinetop, AZ)
        Utah Navajo Violent Crimes Task Force (Monticello, Utah)
        New Mexico Safe Trails Task Force (Gallup, NM)
        Fort Peck Safe Trails Force (Glasgow, MT)
        Tohono O'Odham Safe Trails Task Force (Tucson, AZ)
        Tri-Agency Safe Trails Task Force (Havre, MT)
        Warm Springs Safe Trails Task Force (Bend, OR)
        Headwaters Safe Trails Task Force (Bemidji, MN)
        Blackfeet Safe Trails Task Force (Browning, MT)
        Crow/Northern Cheyenne Safe Trails Task Force (Billings, MT)
        Western Nevada Safe Trails Task Force (Reno, NY)
        Sacramento Indian Gaming Safe Trails Task Force (Sacramento, 
        CA)
        Bismarck-Mandan Safe Trails Task Force (Bismarck, ND)
        Salish Safe Trails Task Force (Spokane, WA)

    Question 10. How could a program similar to the Bureau of Prisons' 
Residential Drug Abuse Treatment program be imported into BIA detention 
facilities?
    Answer. More than 50 Bureau institutions have residential drug 
abuse treatment programs (RDAP). Inmates who participate in the 
residential program are housed together in a separate unit of the 
prison that is reserved for drug treatment. The residential program 
provides intensive half-day programming, 5 days a week. The remainder 
of the day is spent in education, work skills training, and/or other 
inmate programming. Upon RDAP completion, aftercare treatment services 
are provided to the inmate while he/she is in the general population, 
and also later at the residential re-entry center. This maximizes the 
carry-over of skills, ensuring an effective transition from the 
institution program to the community.

    Question 11. Has the Bureau of Prisons' Residential Drug Abuse 
Treatment program reduced the recidivism rates in Indian Country?
    The Bureau and National Institute on Drug Abuse combined funding 
and expertise to conduct a rigorous analysis of the Bureau's 
residential drug treatment program. Research findings demonstrated that 
RDAP participants are significantly less likely to recidivate and less 
likely to relapse than non-participants. The studies also suggest that 
the Bureau's RDAPs make a significant difference in the lives of 
inmates following their release from custody and return to the 
community.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Lisa Murkowski to 
                            Matthew H. Mead

    Some in Indian Country wonder whether [the] Department of Justice 
has the same level of enthusiasm for apprehending and prosecuting the 
perpetrator of a sexual assault on an Indian reservation that it has in 
prosecuting some of the higher visibility crimes that bring national 
media attention to the Department.
    Question 1. Are the U.S. Attorneys in Indian country allocated the 
prosecutorial and investigative resources necessary to adequately carry 
out their responsibilities as the lead prosecutors for violent felonies 
committed on our Indian reservations?
    Answer. As with all government agencies, limited resources must be 
used to address issues of great importance. The Department of Justice 
continues to work in a financially responsible manner and uses the 
resources that it has to best fight violent crime in Indian country. 
United States Attorneys are using creative and productive ideas such as 
those implemented by Matthew Mead and Troy Eid, as discussed pursuant 
to Senator Thomas' questions. Those approaches are significantly 
increasing the investigative resources available to United States 
Attorneys.
    As Mr. Mead indicated in his testimony it is unlikely that any 
prosecutor would say they have too much in terms of resources, but the 
United States Attorneys and the Department of Justice recognize the 
limitations of resource and are trying to maximize the resources that 
are available.

    Question 2. The recent Amnesty International report is somewhat 
critical of the Indian Health Service for failing to adequately train 
its staff and provide the necessary kits to collect the forensic 
evidence necessary to support a sexual assault prosecution. Is this a 
matter of concern to U.S. Attorneys working in Indian Country and is 
the Native American Issues Subcommittee working to address these 
concerns?
    Answer. The United States Attorneys and the Native American Issues 
Subcommittee are always concerned with the appropriate treatment of 
victims of crime. That treatment includes the appropriate investigation 
of their case. Preservation and control of evidence is an essential 
part of any prosecution that involves physical evidence. Although the 
Department of Justice does not exercise direct control over other 
Departments, the Department of Justice encourages the best treatment 
available for those in placed in the unfortunate and difficult position 
of being a victim of crime.
    The NAIS has and will continue to discuss and address violent crime 
in Indian country. General Federal criminal statutes will continue to 
be used as a tool to address violent crime in Indian country. The NAIS 
discussed the recent implementation of Title 18, United States Code, 
Section 117 which addresses domestic violence, a statute that the 
Western District of North Carolina is already using to prosecute a 
habitual domestic violence offender. Federal prosecutors will continue 
to use this and other similar statutes to prosecute violent offenders 
in Indian country.

    I don't know if this is true in your area, but in the Native 
villages of rural Alaska, the importation of alcohol into dry 
communities is regarded as one of the leading contributors to violence. 
Some of the alcohol arrives through the mails.
    Question 3. Has there been discussion within the Native American 
Issues Subcommittee to work with the U.S. Postal Service to intercept 
and prosecute alcohol shipments destined to places where they should 
not be going?
    Answer. This issue is not known as a national trend and affects 
only ``dry'' areas. However, Nelson Cohen the United States Attorney 
for Alaska has implemented a solution to help deal with the problem, 
which has manifest itself in his district. Mr. Cohen along with the 
Alaska Rural Justice and Law Enforcement Commission, recommended that 
Alaska State Troopers be federally deputized by the United States 
Marshal Service, with the United States Postal Inspection Service 
serving as the sponsoring agency. As a result, seven Alaska State 
Troopers, all of which are members of the Western Alaska Alcohol and 
Narcotics Team, were sworn in as Special Deputy United States Marshals. 
Those troopers come from Anchorage, Nome, Kotzebue, and Bethel, Alaska 
This effort is expected to increase the number of prosecutions for 
illegally mailing alcohol into these Alaskan communities.

                                  <all>

</pre></body></html>
